<html>
<title> - COPENHAGEN AND BEYOND: IS THERE A SUCCESSOR TO THE KYOTO PROTOCOL?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   COPENHAGEN AND BEYOND: IS THERE A SUCCESSOR TO THE KYOTO PROTOCOL?

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2009

                               __________

                           Serial No. 111-62

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
53-303                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
            David S. Abramowitz, Chief Counsel deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
         Peter Quilter, Professional Staff Member deg.<greek-l>
                    Daniel Silverberg, Counsel deg.
       Brent Woolfork, Junior Professional Staff Member<greek-l>
    Shanna Winters, Senior Policy Advisor and Counsel deg.<greek-l>
         Jasmeet Ahuja, Professional Staff Member deg.<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Todd D. Stern, Special Envoy for Climate Change, 
  U.S. Department of State.......................................     9
The Honorable Timothy E. Wirth, President, United Nations 
  Foundation and Better World Fund (Former United States Senator)    33
The Honorable Eileen Claussen, President, Pew Center on Global 
  Climate Change (Former Assistant Secretary of State for Oceans 
  and International Environmental and Scientific Affairs)........    41
Steven Groves, J.D., Bernard and Barbara Lomas Fellow, The 
  Margaret Thatcher Center for Freedom, The Heritage Foundation..    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Todd D. Stern: Prepared statement..................    13
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Material submitted for the record.....    23
The Honorable Timothy E. Wirth: Prepared statement...............    36
The Honorable Eileen Claussen: Prepared statement................    43
Steven Groves, J.D.: Prepared statement..........................    53

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    75
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........    77
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    86
Written responses from the Honorable Todd D. Stern to questions 
  submitted for the record by the Honorable Barbara Lee, a 
  Representative in Congress from the State of California........    88
Written responses from the Honorable Timothy E. Wirth to 
  questions submitted for the record by the Honorable Barbara Lee    95
Written responses from the Honorable Eileen Claussen to questions 
  submitted for the record by the Honorable Barbara Lee..........   102


   COPENHAGEN AND BEYOND: IS THERE A SUCCESSOR TO THE KYOTO PROTOCOL?

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The hearing will come to order.
    I will yield myself time for an opening statement and the 
ranking member as well and the representative from American 
Samoa and the gentleman from Illinois, Mr. Manzullo, if he 
comes, for 3-minute statements and then other members for 1-
minute opening statements.
    In a little over 1 month, world leaders will gather in 
Copenhagen, Denmark, in an effort to tackle one of the most 
difficult challenges of our time--global climate change. 
Numerous studies have warned that the failure to act quickly 
and decisively on global warming will have disastrous 
consequences. Many developing countries will face the threat of 
severe flooding, the loss of arable lands, and the spread of 
cholera, malaria, and other diseases.
    A World Bank Study released last May estimated that storm 
surges resulting from rising sea levels could threaten 52 
million people and 29,000 square kilometers of agricultural 
land in developing coastal countries around the world. This 
will likely lead to mass migration, political instability, and 
even failed states.
    While countries in the developing world will bear the brunt 
of climate change, the effects of global warming will also be 
felt here in the United States. According to the U.S. Global 
Change Research Program, a consortium of 13 Federal agencies, 
climate change will affect almost every aspect of American 
life, from access to food, to the state of our health, to the 
amount of energy we use. In my home State of California, where 
water is already scarce, increasing temperatures could lead to 
a major water crisis--in fact, I think we are having a major 
water crisis right now.
    While there is growing certainty about the consequences of 
climate change, it is unfortunate that the same cannot be said 
about the prospect for charting a new course in Copenhagen. 
Will the result be a comprehensive, binding agreement to reduce 
global emissions and provide aid to developing countries to 
deal with the impacts of climate change? Or will we see, as is 
more widely expected, a more general framework agreement with a 
``roadmap'' to a future deal?
    At this late stage, no consensus has been reached on 
specific objectives for lowering global greenhouse gas 
emissions or on how best to help poor countries adapt to 
climate change. Differences also remain on what funding levels 
are adequate to achieve these objectives and how to help 
developing countries access clean energy technologies while 
protecting intellectual property rights. In part, this is a 
result of the fact that the United States has limited 
flexibility to negotiate at Copenhagen because Congress has yet 
to provide clear guidance on emission levels and other key 
issues.
    In June, the House passed legislation that would reduce 
U.S. greenhouse gas emissions by 17 percent below 2005 levels 
and provide assistance for poor countries to adapt to the 
impacts of climate change, develop clean energy technologies, 
and reduce emissions from deforestation. The Senate has yet to 
act, but Majority Leader Reid has announced he wants 
<greek-l>the  deg.Senate committees to complete their work 
before Thanksgiving. I personally strongly support Senators 
Kerry and Boxer's efforts to move this legislation soon.
    If we hope to achieve a meaningful international agreement 
on climate change, the United States will have to make serious 
commitments to reduce its emissions and to help developing 
countries. Many nations, both developing and industrialized, 
have been very clear about the need for U.S. leadership in this 
arena. Regrettably, in recent years, such leadership has been 
lacking.
    In his recent speech before the United Nations General 
Assembly, President Obama made it clear that the world can no 
longer postpone a serious response to climate change. He 
acknowledged that many nations will be devastated by drought 
and famine if we fail to alter our current course. Just 
yesterday, Chancellor Merkel spoke passionately about this 
issue.
    One thing this committee can do to help combat climate 
change is to begin the process of modernizing our foreign 
assistance <greek-l>to  deg.institutions and programs. This 
will allow us to more effectively help developing countries 
meet their energy needs in an environmentally sustainable 
manner and adapt to climate-related challenges. I am hopeful 
that we will begin considering foreign assistance reform 
legislation early next year.
    Today's hearing will help us gain a better understanding of 
the challenges and opportunities at Copenhagen, the positions 
of the various parties, and the possible outcomes of the 
climate change negotiations.
    To help us explore these complex issues, we have a number 
of excellent witnesses with us today, which I will soon 
introduce. But, first, I would like to turn to my friend and 
colleague, the ranking member, the gentlelady from Florida, Ms. 
Ros-Lehtinen, for any opening remarks she might want to make.
    Ms. Ros-Lehtinen. Thank you so much as always, Mr. 
Chairman, for this hearing and for the opportunity to make 
opening statements.
    The Obama administration has made clear its desire to try 
to reach what it says will be an historic agreement to replace 
the expiring Kyoto Protocol at the upcoming United Nations 
climate change conference in Copenhagen. However, there is 
growing concern about the implications of such an agreement. 
Many of the proposals already put forward in the name of 
fighting global climate change contain provisions that, if 
adopted, would do great harm to U.S. interests.
    A recurring theme is the establishment of new and 
unaccountable United Nations' style organizations acting as 
global regulatory bodies and armed with far-reaching powers 
that current U.N. bureaucrats can only dream of. Perhaps more 
troubling is that, under many plans, these international 
bureaucrats would have tens of millions of dollars at their 
disposal to spread around the world. Based on past experience, 
much of that money would undoubtedly disappear into the hands 
of favored individuals and corrupt governments, never to be 
seen again.
    The prospect of a powerful, unaccountable, international 
regulatory bureaucracy leads directly to an even greater 
concern, namely, the undermining of U.S. sovereignty. Behind 
the urgent calls for collective action on climate change is the 
fact that many of these proposals are intended to be mandatory 
and enforced by international authorities.
    There are other problems with the proposals put forth. One 
example is the demand by developing countries that the United 
States and other developed countries pay them tens and even 
hundreds of billions of dollars in compensation for taking 
action to address climate change. The proposed sums defy 
belief.
    China's solution is to have the United States and the 
developed nations contribute up to 1 percent of their gross 
domestic product to the developing world annually. For the 
U.S., that would amount to $140 billion per year. Now, we have 
been getting used to speaking in terms of trillions of dollars, 
but $140 billion per year every year still sounds like a lot of 
money to me. Some of the developing countries have insisted 
that this money or payment to them must be a legally binding 
obligation that<greek-l>, quote, deg. ``cannot be subject to 
decisions of developed country governments or 
legislatures.''<greek-l> End quote. deg. Basically, under these 
proposals, the American taxpayer would be required to subsidize 
other countries; and the U.S. Government and specifically the 
U.S. Congress would have no say in it.
    Also raising concerns is the disproportion in the 
obligations and the idea being considered for the U.S. and 
other developed nations to voluntarily impose significant 
restrictions on ourselves while granting developing countries a 
pass. This is one of the most objectionable provisions in the 
current Kyoto Accord, but it has already made its appearance in 
these new negotiations.
    Although China is now the world's largest producer of 
carbon emissions and India is racing up to catch it, these and 
other countries have repeatedly stated that they have no 
intention of adopting costly measures to address this 
situation, although they are happy to have the United States, 
Europe, and other developed countries do so. Only 2 weeks ago, 
India's environment minister stated that<greek-l>, quote, deg. 
``India will never accept internationally legally binding 
emission reduction targets. These are for developed countries 
and developed countries alone.''<greek-l> End quote. deg.
    Developing countries are also targeting intellectual 
property rights, or IPR, by demanding free access to clean 
energy technologies. These proposals include prohibiting 
companies from patenting their own creations, compulsory 
licensing, and the waiving of all royalties. One can only 
imagine the consequences in China and elsewhere from the 
removal of such international property rights protections, 
given China's role as the number one violator of intellectual 
property rights in the world.
    And, finally, there are the enormous economic costs for the 
American people. Many of the proposals being discussed are so 
sweeping that our economy would have to be restructured in 
order to achieve them. No credible estimate of the actual cost 
to our economy in terms of money, lost jobs, and reduced 
economic output have been put forward, but at a time of 
economic distress and widespread unemployment here at home, we 
should avoid imposing additional burdens on U.S. businesses and 
individuals.
    These are but some of the problems relating to the Kyoto 
Accord and negotiations for a successor treaty. It is my hope 
that President Obama will bear these facts in mind and not rush 
to sign the U.S. on to an agreement that could seriously harm 
our own interests.
    Thank you, Mr. Chairman, for the time.
    Chairman Berman. I thank the gentlelady.
    Now I am pleased to recognize the chairman of the 
Subcommittee on Asia, the Pacific<greek-l>, deg. and the Global 
Environment, the gentleman from American Samoa, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    As we speak, Mr. Chairman, the climate change negotiators 
from 175 nations are meeting in Barcelona, Spain, for a final 
week of official talks before next month's climate change 
summit in Copenhagen. That summit offers a crucial opportunity 
to advance a new and a more comprehensive agreement to replace 
the Kyoto Protocols after our country's own absence for some 8 
years now, hopefully to limit greenhouse gas emissions and 
avoid the worst consequences of climate change.
    Fortunately, the U.S. is playing a positive role in that 
effort, as President Obama has long recognized the need for 
American leadership in reducing emissions, developing a clean 
energy economy, and addressing the impact of global warming.
    Passage of the Waxman-Markey bill last June has 
demonstrated that the House is rising to the occasion. I hope 
and believe that the Senate will soon make important progress 
as well, despite yesterday's Republican boycott of the Senate 
Environment and Public Works Committee markup of the Kerry and 
Boxer bill. The generally positive developments in Washington 
have added impetus to the negotiations in Copenhagen and 
enhance the prospect for a successful agreement on tackling the 
manifest problems of global warming.
    Mr. Chairman, I believe that the United States and other 
developed countries have a moral obligation to provide adequate 
and sustainable levels of assistance to the most vulnerable 
countries. Those most adversely and immediately affected by 
climate change are those least responsible for the greenhouse 
gas emissions.
    Driving global warming, as the World Development Report 
2010 noted, are high-income countries with one-sixth of the 
world's population, responsible for nearly two-thirds--and I 
repeat, Mr. Chairman, two-thirds--of the greenhouse gases 
currently in the atmosphere. Yet those living in developing 
countries are bearing and will continue to bear the 
overwhelming majority of the costs.
    Thus far, Mr. Chairman, however, there has been relatively 
little discussion in Washington of the problems posed by 
climate change for developing countries and even less 
commitment of resources. Indeed, the amounts directed to the 
developing world by the Waxman-Markey and Kerry-Boxer bills are 
woefully inadequate. That is the key reason why I have focused 
the climate change work on the subcommittee on the impacts of 
the most vulnerable societies and the resources required to 
reduce or avoid those impacted.
    Mr. Chairman, the Europeans, though more forthright in 
making official estimates of the resources needed by developing 
countries, have not been much forthcoming in making 
commitments. Just last Friday, for example, the European Union 
asserted that developed countries needed to provide some $75 
billion annually to developing countries by the year 2020 to 
help them cope with climate change, beginning with a fast 
start. And all of this, unfortunately, Mr. Chairman, despite 
pointing out the sums needed, the EU failed to state how much 
it was willing to provide, let alone how costs are to be 
divided amongst 27 members.
    Mr. Chairman, I know my time is up, but I will wait for 
another chance to say more.
    Chairman Berman. We will include the entire statement in 
the record.
    And now who seeks recognition on the minority side?
    Mr. Rohrabacher. Mr. Chairman, seeing that Mr. Manzullo 
isn't here and seeing that I do sit in on those particular 
hearings held by that subcommittee, might I claim Mr. 
Manzullo's time.
    Chairman Berman. As long as it doesn't establish a 
precedent.
    Mr. Rohrabacher. All right. This is nonprecedent setting.
    Chairman Berman. This is a waiver for vital national 
security interests.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Chairman Berman. The gentleman is recognized for 3 minutes.
    Mr. Rohrabacher. And I appreciate that, considering you 
know what my positions are on this issue, but I will make it 
clear for the hearing.
    Chairman Berman. I am hoping it is going to help me.
    Mr. Rohrabacher. Let me just note that the words that are 
being used today: ``Climate change.'' Climate change. Did they 
always call it climate change? I seem to remember that up until 
recently the words were ``global warming.'' And, in fact, for 
two decades we were inundated with and smothered with this word 
global warming was this tremendous threat that was about to 
engulf the world.
    Let me just note that the reason why it has changed from 
global warming to climate change is that all the predictions 
that we were told, these dire predictions over the last 20 
years, have been proven wrong. Instead of getting warmer for 
the last 9 years, it has not been getting warmer. It has 
actually been getting cooler. In fact, the much-heralded 
melting of the arctic ice cap has for the last 2 years reversed 
itself. And that is just in terms of global warming not being 
proven. But man-made global warming we hear more and more 
scientists stepping forward to repudiate this flawed theory, 
global warming, which is being used basically to attain a 
political agenda through basically manipulation of the 
scientific establishments in various countries.
    Let me note that if we move forward--just for example, I 
will just say, with all due respect to my good chairman and 
friend, Eni Faleomavaega, the countries are not putting two-
thirds--no countries, including developing countries, are 
putting two-thirds of the greenhouse gases into the atmosphere. 
Ninety percent of all greenhouse gases are caused naturally. 
And the focus of controlling carbon dioxide, which is a very 
miniscule part of the atmosphere, does not make sense to many 
scientists who are now stepping forward, finally, after this 
barrage of propaganda which is being used, Mr. Chairman, to 
justify what we are talking about today, an attempt to create 
global controls over the United States of America and a 
compromise of our sovereignty which will undermine our 
prosperity and our freedom.
    This is an issue that should be taken very seriously; and 
people should note that, after 20 years of hearing about global 
warming, now it has become climate change, which has a great 
deal of significance to the issue that we are talking about 
today.
    Thank you very much, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    We do have two panels today, so to the extent members can 
include their statements in the record, that would be helpful.
    But I will now recognize any member of the majority who--
the gentlelady from California, Ms. Watson, is recognized for 1 
minute.
    Ms. Watson. Thank you, Mr. Chairman.
    This is a very important hearing that you are holding 
today, and I look forward to Copenhagen. As we turn our 
attention to the facts and figures, the position of the 
administration, and the timeline of our Senate colleagues, I 
ask that we keep a few things in mind.
    Firstly, we all live in the environment. When a pipe 
breaks, the roof starts leaking, or something blows a fuse in 
our homes, we fix it. We can debate about why it happened and 
how it happened, but in the end the only thing we can do is 
make sure the problem is fixed as best as we know how. The 
environment and our home, we have a responsibility to take care 
of it.
    Also, our environment very clearly affects all of us. The 
Samoan people survived a tsunami just last month. Villagers in 
Ethiopia face hunger daily because of the seemingly endless 
drought. And in my own district, California, Los Angeles, we 
constantly face water shortages that are exacerbated by the 
reduction in the rainwater over the years. Therefore, 
Copenhagen represents an opportunity for us to collectively 
think through and act to ensure that we live in a healthy 
environment.
    Thank you, Mr. Chairman. I yield back.
    Chairman Berman. The time of the gentlelady has expired.
    Anyone? The gentleman from Florida, Mr. Bilirakis, is 
recognized for 1 minute.
    Mr. Bilirakis. Thank you very much. Thank you, Ranking 
Member Ros-Lehtinen. Thank you for calling this important 
hearing. I look forward to hearing from our distinguished panel 
of witnesses.
    I am deeply concerned about the potential consequences of 
Copenhagen. As we are dealing with double-digit unemployment 
for the first time in decades, the last thing we need coming 
out of Copenhagen is an energy tax that will drive energy costs 
through the roof for families and hamstring small businesses 
who are trying to survive and create jobs. I am worried that 
any international treaty addressing climate change will 
severely disadvantage American businesses and shift jobs to 
other nations like China and India which do not cap emissions 
and will not be encumbered by any protocols.
    We must balance the need to protect our environment with 
the need for economic growth and job creation. Unfortunately, I 
believe that any resolve at Copenhagen will fail to effectively 
strike that balance and will do more harm than good.
    We most certainly should not agree to live by the terms and 
conditions of any international treaty or legislative body 
other than the United States Congress.
    Chairman Berman. The time of the gentleman has expired.
    Mr. Bilirakis. Thank you, Mr. Chairman. I would like to 
submit the rest of my testimony for the record.
    Chairman Berman. Who else on our side seeks recognition? 
Mr. Carnahan is recognized for 1 minute.
    Mr. Carnahan. Thank you, Mr. Chairman.
    Since coming to Congress, I have advocated for the U.S. to 
reengage in a more commonsense international policy in terms of 
climate negotiations. It is incumbent upon us as a country, I 
believe, to lead by example, and we have a responsibility to 
future generations here at home, to our fellow nations abroad, 
and it is an opportunity for us to lead by example, to use the 
very best of American science and innovation to create a new 
generation of green entrepreneurs and green jobs. This is what 
I think the opportunity is at hand to address this issue.
    The prior administration, unfortunately, repeatedly denied 
the very existence of climate change, attempted to silence 
scientists that spoke out about this. I think the weight of the 
evidence, the urgency, and the magnitude of the problem 
deserves our very best attention and our very best efforts; and 
I appreciate us having this hearing here today.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. I thank the gentleman, and I will put my full 
statement into the record with consent.
    Chairman Berman. Without objection.
    Mr. Connolly. I just want to say two things: That the era 
of global warming denying is over. Thank God. For the last 8 
years we have denied the compelling evidence, the overwhelming 
evidence of the reality of global warming, and the time for 
that denial is now over. And, secondly, this is an opportunity 
for the United States to reassert global leadership, having 
squandered that opportunity these last 8 years. We can now take 
our rightful place at the table.
    And, as we heard from one of our key allies at the joint 
session just yesterday, from Angela Merkel, the Chancellor of 
Germany, our allies are looking for that leadership and looking 
for that cooperation. This is a great opportunity.
    Thank you for holding the hearing, Mr. Chairman. I yield 
back.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from California, Ms. Woolsey, is recognized 
for 1 minute.
    Ms. Woolsey. Thank you, Mr. Chairman.
    This hearing is not only important to our State of 
California and our country and our world but to the sanity of 
Members of Congress. Because what a welcome relief it is, Mr. 
Chairman, to have the opportunity to hear this expert group of 
panelists we are going to have and the witnesses today and on a 
subject that is not health care. So it is a subject we cannot 
ignore, and it is going to give us a nice relief to be thinking 
about something equally as important.
    Thank you.
    Chairman Berman. A panel on the health care implications of 
global warming.
    The gentlelady from Nevada, Ms. Berkley, is recognized for 
1 minute.
    Ms. Berkley. I have no statement at this time.
    Chairman Berman. The gentleman from New York, Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman. I will submit my 
opening statement for the record.
    Chairman Berman. Without objection.
    Mr. Crowley. I just want to comment just briefly and very 
quickly.
    I hear repeatedly from my colleagues on the other side of 
the aisle this is not the right time to do this. If this is not 
the right time, when will it be the right time to do this?
    It was not the right time in 1935, it is argued, to create 
Social Security. But today we see that Social Security has been 
one of the great achievements of our country. During the middle 
of the Great Depression, we did that.
    It was not the right time in 1965 to create the Medicare 
system during the Vietnam War and during the civil rights 
movement. It was not a good time to be doing things like that.
    It is not the right time to be doing global warming because 
of the economic condition of our country. This is exactly the 
right time to be doing this, talking about new jobs, creating 
green jobs for America, and at the same time reducing pollution 
and contributing positively toward the growth of industry in 
not only our country but throughout the world. This isn't only 
a good time, this is the only time we are going to have an 
opportunity to do this again and get it right.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman who knows something about the water crisis in 
California, Mr. Costa, is recognized for 1 minute.
    Mr. Costa. Thank you very much, Mr. Chairman.
    It is a timely hearing. I think it is clear and 
undisputable that the climate has always been changing. I think 
the debate currently is whether or not and how much we are 
contributing to that climate change. I think there is a 
substantial amount of evidence that we are contributing 
significantly to that climate change; and I think it provides 
tremendous opportunities, if we take advantage of them, for the 
economy and for new technologies and for a new generation of 
energy development.
    In California, we are largely dependent upon our water 
supplies through Mother Nature's icebox which is the Sierra 
Nevada, the snow that takes place there. We need that to 
continue. With climate change, we need to understand how we are 
going to better balance our water resources in a water-
deficient State. And so I think it is very important, not just 
from the standpoint of energy but from a host of other water 
resource and related energy issues, that we balance these needs 
and that we take the time to do what is right.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from Arizona is recognized for 1 minute.
    Ms. Giffords. Thank you, Mr. Chairman.
    I am really pleased that Mr. Stern is here today and that 
we will have a chance to hear from him and other members as 
well. This is a hearing that is incredibly important and is 
coming at an important time. I am excited about traveling to 
Copenhagen with other Members of the Congress to have a global 
conversation about what is happening with climate change.
    I come from Arizona and, very much like my colleague from 
California, the problems that we are facing are truly grave. 
Climate change will affect our part of the country to a much 
greater extent than other parts. Arizona is highly dependent on 
the Colorado River. The Colorado River has over 25 million 
users, increased population growth in that area, and the 
Colorado is beginning to run quite low.
    The invasive species that have come in because of climate 
change as well, the buffelgrass infestation, for example, the 
infestation of the bark beetle, the mega fires that we are 
having across the West, these are not by coincidence. It is 
real, and it is happening.
    The positive aspect of what often seems as a doom-and-gloom 
situation is that this is a human-caused problem, and it can be 
a human solution as well. And that is what I am looking forward 
to in terms of creating new jobs with a new type of energy and 
a new way of addressing this problem. So there are real 
possibilities here.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentlelady has expired.
    We are now pleased to welcome Todd Stern to the committee. 
He was named as the special envoy for climate change on January 
26, 2009, by Secretary Hillary Clinton. In that position, he 
plays a central role in developing clean energy and climate 
policy, both domestic and international.
    Prior to his service with the Obama administration, Mr. 
Stern was a senior fellow at the Center for American Progress, 
where he focused on climate change and environmental issues. 
From 1997 to 1999, he led the Clinton administration's 
initiative on global climate change, acting as the senior White 
House negotiator at the Kyoto and Buenos Aires negotiations.
    Mr. Stern, thank you very much for being here, and we look 
forward to your opening statement and the questions.

  STATEMENT OF THE HONORABLE TODD D. STERN, SPECIAL ENVOY FOR 
            CLIMATE CHANGE, U.S. DEPARTMENT OF STATE

    Mr. Stern. Thank you very much, Mr. Chairman.
    I must say, I have not yet been accused during the year of 
being able to provide relief to an issue that is even harder 
than this, so I appreciate the welcome. And I think this issue 
will be a tossup as to whether health care or this is more 
complicated.
    But, in any event, thank you very much, Mr. Chairman, 
Ranking Member Ros-Lehtinen, and members of the committee for 
inviting me here today.
    I would like to give you a brief update today on the state 
of negotiations. Time is growing short. We have just 32 days 
left until the beginning of the Copenhagen conference, and 
there is still a lot of work to do.
    Broadly speaking, I think it is fair to say that progress 
has been too slow to date, especially in the formal U.N. 
negotiating track. We are also operating intensively on other 
tracks--the major economies forum of 17 major economies, 
developed and developing, and the bilateral track--both of 
which have been more constructive. But the formal negotiating 
track is still quite problematic.
    The developed-developing country divide that has run down 
the center of climate change discussions for the past 17 years 
is still, I am afraid, alive and well. Developing countries 
tend to see a problem not of their own making and they are 
being asked to fix it in ways which they fear could stifle 
their ability to lift their own standards of living. And, of 
course, we cannot expect developing countries or indeed any 
country to commit to actions that they cannot plausibly achieve 
or to make promises that are antithetical to their need to 
fight poverty and build a better life for their citizens.
    We must send a message that the effort to reach a new 
climate change agreement is not simply about putting a cap on 
emissions. It is also about development. And in the world we 
now inhabit, the only sustainable development is low carbon 
development.
    But let me say what is not helpful is the way that some 
developing countries, in any event, focus more on citing 
chapter and verse for dubious interpretations of the original 
Framework Convention Treaty or the Bali Action Plan, designed 
to prove that they don't have any responsibility for action 
now, rather than thinking through pragmatic ways to find common 
ground and start solving the problem.
    We recognize that developed and developing countries, even 
the major ones, can be expected to do different things. For 
example, the economy-wide reductions against a specific 
baseline such as 2005 for developed countries on the one hand 
and strong actions by developing countries that will have the 
effect of reducing their emissions versus their business as 
usual trend lines. Those are quite different things.
    And we agree that developed countries have particular 
responsibilities that are different from developing countries 
with respect to providing financial and technology assistance 
to poorer countries. We not only understand this, but we have 
made a number of very forward-leaning and constructive 
proposals in this regard.
    We know that developed countries, including the United 
States, have a special responsibility, given our role in 
producing the emissions already in the atmosphere and because 
of our greater wealth and capability. What we do not agree 
with, though, is that we should commit to implement what we 
promise to do while major developing countries make no 
commitment at all, hiding behind a misreading of the principle 
of common but differentiated responsibilities and respected 
capabilities.
    And we do not agree that only the actions of developed 
countries should be submitted to a serious transparency and 
accountability regime, including peer review by other 
countries, while the major developing countries should be 
subject to no peer review at all unless the actions were paid 
for by developed countries.
    The mentality that looks at the world through those lenses 
will not produce an agreement in Copenhagen. We have to do 
better. After all, we are not engaged right now in a debating 
society about the exegesis of section X of subpart 1 of sub-
subpart B of the Framework Convention or the Bali Action Plan. 
We are seeking to put in place a new agreement based, broadly 
on the concepts of those underlying documents, to be sure, 
intended to safeguard our future and the future of our 
children, to take an important step, in a word, toward saving 
the planet and improving the economic, environmental, and 
natural security future of America and the world.
    This is a profound undertaking, it is a profound 
responsibility, and we need to all treat it as such. The sooner 
we get past the mentality of resisting responsible action and 
the sooner we get into the mentality of searching for pragmatic 
common ground, the better off we will be.
    Ninety-seven percent of the growth of emissions between now 
and 2030 is projected to come from developing countries, and 
about 50 percent of that from China alone. We cannot solve the 
problem without major action by the emerging market countries, 
absolutely consistent, with their imperatives to grow and 
eradicate poverty but major action nonetheless. And no country 
holds the fate of the Earth in its hands more than China. In 
our view, it is precisely because of their common but 
differentiated responsibilities and respective capabilities 
that they and others need to step up.
    Now, paradoxically, while the negotiations are in a 
difficult state, it is also true that we are at a moment in 
history when more countries, including China, India, Brazil, 
South Africa, are in fact taking stronger action or are poised 
to take stronger action than ever before to combat climate 
change. And the negotiations going on right now have helped to 
drive these countries and others, developed countries as well, 
to recognize the seriousness of the problem and to assert and 
recognize the need for global action. So we need to find a way 
to capture the positive effects on the ground--and there are 
many--to get a deal, and I firmly believe that we can do this.
    What are the key issues that we need to make progress on? 
They are mitigation issues that I have already referenced. Both 
developed and major developing countries need to not only 
undertake those actions at home but reflect them in an 
international agreement. Those actions must be subject to a 
solid transparency and accountability regime. There must be 
financing provisions to get to a deal, and in this regard I 
hope that the Senate takes this into account as it pushes its 
own version of a bill. There need to be provisions for 
technology assistance, assistance on adaptation, forestry, and 
the like.
    We all, both in Congress and in the administration, have a 
lot of work ahead. The world is watching our legislative 
progress closely; and the more progress that is made by the 
time of Copenhagen, the better off we will be. What we do or 
don't do domestically is hugely important. It is, in a word, 
central to our credibility and our leverage.
    For our part, we will continue intensively engaging with 
key countries and country blocs between now and Copenhagen. My 
team right now is in Barcelona participating in the broad 
framework convention negotiations that go on periodically. And 
President Obama and the Secretary of State, along with our 
entire administration, are committed to seizing each 
opportunity to make progress.
    Our objective, of course, is to pursue the strongest 
possible outcome we can get in Copenhagen consistent with the 
science and mindful of the necessity to be practical and 
pragmatic. The health and safety of our children's future 
depends upon it.
    I look forward to answering the committee's questions. 
Thank you.
    [The prepared statement of Mr. Stern follows:]<greek-l>Todd 
Stern deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much, and I yield myself 5 
minutes to start the questioning.
    Step back, if you would, for a moment, Mr. Stern, and just 
sort of tell us, why is it more important now than before for 
the international community to act soon to lower greenhouse gas 
emissions and help the developing countries that are affected 
by climate change?
    Mr. Stern. Mr. Chairman, I think it has been important for 
quite some time. I think it grows ever more important, because 
the problem gets worse and gets more visibly worse. If you look 
at the evidence from all around the world, whether it is from 
the Arctic, to the Antarctic, to glaciers melting in the 
Himalayas, to droughts in our country and around the world, to 
extreme weather events, to the force of hurricanes and the 
like, there is just a huge imperative to begin to take action.
    And the steps that need to be taken involve essentially the 
transformation of the energy base of the global economy. It 
involves the transformation of our energy infrastructure. You 
have got to start. The longer that we wait, the worse it gets. 
We are on a track to go--if we keep to our business as usual, 
we are on a track for a temperature increase that would lead to 
potentially catastrophic consequences. And so it is way past 
time, but it is certainly time to take the action that you have 
referenced.
    Chairman Berman. Thank you.
    Yvo de Boer, who oversees the U.N. negotiation, said 
recently that there is not sufficient time to reach a 
comprehensive agreement in Copenhagen. He also hoped that 
Copenhagen wouldn't simply be a declaration of principles. 
Keeping those comments in mind, what are the expectations for 
Copenhagen? Will the outcome be a new roadmap similar to Bali 
that sets a new date for a binding comprehensive international 
agreement? What would the components of a framework agreement 
look like?
    Mr. Stern. Mr. Chairman, I think that, in a word, the 
objective, what success will be in Copenhagen, is the strongest 
possible agreement we can get. I would think that we would 
certainly hope that that would go well beyond simply a 
restatement of Bali or a roadmap for further negotiations.
    I would note in this regard the Prime Minister of Denmark, 
who has more than the average concern and interest in the state 
of these negotiations, has spoken recently, gave a speech to a 
group of international legislatures--Congressman Markey was 
actually there--on the 24th of October in which he called for 
full-tilt pressure to move forward on getting a comprehensive 
legal agreement but recognizing that that might not be in the 
cards and doesn't look like it is in the cards for December, 
that we should make progress on a political agreement that hit 
each of the main elements--mitigation commitments, transparency 
and accountability, financing, technology, force adaptation--
and to do all of that in a strong agreement that leads the way 
to a full legal instrument perhaps next year or as soon as 
possible.
    So I think that we want something certainly beyond simply a 
declaration that says we are going keep working on this. We 
want a real agreement.
    Chairman Berman. I thank the gentleman.
    I yield back the balance of my time and recognize the 
ranking member for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you, Mr. Stern. I have a few questions. We won't have enough 
time to answer them, but just some of my concerns.
    President Obama has said that he supports the proposed 
reduction in global emissions by 50 percent by the year 2050 
and that the U.S. should be able to reduce our own emissions by 
over 80 percent. What are the estimated costs in the terms of 
foregone economic growth, jobs, income in meeting this target?
    Following that, the developing countries argue that 
significant reductions on emissions will reduce economic growth 
and that the developed countries were not subjected to similar 
restrictions in their history. Are they wrong in believing that 
these proposals will reduce economic growth? And if yes, why do 
the same arguments not hold true for the developed world?
    And, lastly, China has repeatedly stated that it will only 
accept any limits, as I said in my opening statement, on its 
emissions--it will not accept any limits, even though it is the 
largest in the world. How can the targets you have outlined, 
without cooperation by China and other developed countries, 
work?
    Thank you, sir.
    Mr. Stern. Thank you very much, Madam Ranking Member. Let 
me try to take these quickly in order.
    Your first question is about costs, and there are different 
assessments of that. I think that the assessments within the 
administration are quite, quite modest. I don't remember the 
exact number, but I think it is 100-something dollars over the 
course of a year. And we can get you that exact number, but it 
is quite modest for the costs of taking action. And let me say 
that it is also our view that this is an enormous growth 
opportunity with respect to the whole area of clean energy and 
clean technology development.
    We are going to be--whether we acknowledge it today or we 
acknowledge it next year or we acknowledge it in 10 years, we 
are going to be in a low carbon world. There isn't any way 
around it. At some point, people recognize that smoking 
cigarettes causes cancer. At some point, people are going to 
recognize that too much carbon in the atmosphere is going to be 
damaging; and we are going to, the whole world----
    Ms. Ros-Lehtinen. I am sorry--just because we have such 
limited time. So what is the estimated cost in terms of growth, 
jobs, and income in the target?
    Mr. Stern. My staff just handed me a note saying that what 
I said was I think it is in the range of 100-something dollars 
a year. I see the EPA estimate $100-175 a year, is our EPA 
estimate.
    But there is going to be a huge--a huge industry, set of 
industries that grow up in the course of converting to low 
carbon. We are either going to be a leader in that--and we have 
the capacity in terms of our technological ability, our capital 
formation, our financial industry, et cetera, to be a leader 
there. We can be a leader, or we can fall behind.
    Ms. Ros-Lehtinen. The section about China saying repeatedly 
that it is not going to limit their emissions. How is this 
going to work worldwide?
    Mr. Stern. The problem--and you are raising a very good 
point, Ms. Ros-Lehtinen. But the issue here is not that China 
or the other countries are not taking real action. They 
actually are taking real action. The issue is and the 
difficulty and what we are trying to work on now is that they 
are much more willing--the way I often put this is countries 
are willing to do more than they are willing to agree to do in 
an international treaty.
    If you look at what China is doing in terms of their 
reduction in energy intensity, in terms of their renewable 
targets, in terms of what they are doing on nuclear energy, in 
terms of what they are doing on energy efficiency, it is quite, 
quite significant; and it certainly appears from everything 
that both I have seen and that others who are interacting a lot 
with China have seen is they have started to get the bit 
between their teeth and they are going to move on this.
    And the thing that I worry about is not so much that is not 
our pushing China now but that we are going to be chasing China 
if we don't get our own act together 5 years from now and out 
into the future. So they are acting, but they are resisting 
making promises in an international agreement. And that is a 
problem, and we are working on that, but it is not the case 
that they are not doing anything.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from American Samoa, Mr. Faleomavaega, is 
recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman; and I want to 
personally welcome Mr. Stern also this morning for our hearing.
    A couple of observations, and please correct me if I am 
wrong in these observations, Mr. Stern.
    Our country's population makes up only 4 percent of the 
world's population and yet we consume about 30 percent of the 
world's energy resources. Of course, in fairness to our 
country, we are also the biggest contributor to the needs of 
the many problems the world currently has. No question that 
India and China have to be part of this whole negotiation or 
summit that is going to be coming up in Copenhagen or else the 
whole issue is a failure.
    The question is also whether or not the administration is 
very firm about its commitment in seeing that, as part of the 
negotiation process, we do identify and help the most 
vulnerable societies in the developing countries that not 
necessarily are the producers of these greenhouse gas 
emissions.
    I remember 9 years ago, and right where you are sitting, 
was the former Secretary of State, Colin Powell, when the 
administration first started at that time. And the question 
that I raised before him, where was the administration's 
position on climate change? And I remember Secretary Powell 
said: ``In a matter of 2 months, we will let you know about 
this.'' Every indication was that he was going to continue the 
engagement process of the Kyoto Protocols. Now, as you know, 
the Senate killed any indication of whether or not we support 
the Kyoto Protocol.
    And I agree with the fact that the Kyoto Protocols had many 
provisions that were very unfair to the needs of our country. 
But the criticism that I have had, not only did we take 
ourselves away from the negotiation table, we just simply had 
nothing to do with Kyoto anymore. And it is almost going to the 
idea that if you are not at the table you are going to be on 
the menu. And I believe, Mr. Stern, that for these years we 
have been on the menu, ridiculed, criticized. And to say that 
the most productive country in the world is not even at the 
negotiating table, whether or not this issue is very important 
not only to our own national security but to the needs of the 
entire world, that we just simply were in absentia, if you 
will, for these past 8 years.
    Now, I know, with due respect to my good friends who still 
question whether or not climate change really is a serious 
issue that our own country should be a participant on, I wanted 
to ask you--and I could not agree with my good friend and 
colleague from Virginia that the years of global warming denial 
is over. I think 8 years is long enough.
    When I was at the Bali conference, Australia was the first 
country that signed on to the Kyoto Protocol; and we were 
sitting there so embarrassed. Because 190 countries gave 
Australia a standing ovation for its commitment to global 
change, and we just stood there like a--well, just embarrassed, 
if you want my opinion.
    But I would like to ask you, what is the administration's 
position about helping the most vulnerable societies at the 
Copenhagen discussions coming up next month?
    Mr. Stern. We think that helping the most vulnerable 
societies is a crucial part on any new agreement, Congressman. 
This comes up in a couple of different places.
    One is the issue of adaptation. We have put in a strong 
position in support of adaptation particularly focused to the 
poorest and most vulnerable countries. It arises in the context 
of technology assistance, and it arises in the context of 
financial assistance. We are in favor of all of those things in 
a reasonable way.
    The ranking member pointed out some of the fairly 
outlandish numbers that are thrown around by some developing 
countries; and certainly when you talk about things like 1 
percent of GDP, that is silly. But real support is absolutely 
essential. And not only is real support essential, but we 
believe it is essential now. We believe that we should get 
going with an agreement that can take effect and that can start 
moving right away, not be delayed for several years; and we 
hope that is what we can help to make happen.
    Mr. Faleomavaega. Mr. Chairman, I wanted to ask Mr. Stern, 
I would deeply appreciate some clear statements from the 
administration about the substance of the Waxman-Markey bill 
provisions regarding what kind of assistance are we serious 
about in providing for the needs of these most vulnerable 
societies. Because it seems that--my own observation, Mr. 
Chairman--there has been a lot of rhetoric, a lot of floating 
ideas, but no real substantive commitment to help this part of 
the equation as far as climate change is concerned. I know my 
time is up, Mr. Chairman, but I would appreciate that.
    Chairman Berman. I, unfortunately, should have mentioned at 
the beginning, our 5 minutes <greek-l>is deg.are for both the 
questions and the answers. But the question you asked on our 
second panel is one of the ones I wanted to start out with.
    Mr. Faleomavaega. If he could just submit for the record.
    Chairman Berman. Sure. Very good. If you would, we would 
make it part of the hearing transcript.
    Mr. Stern. Happy to do that.
    [The information referred to follows:]
Written Response Received from the Honorable Todd D. Stern to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    We support the House for its emphasis on adaptation in Waxman 
Markey, as this will be an increasingly important issue in 
international climate discussions as the impacts of climate change 
become more pronounced. The Administration considers it very important 
to address the needs of the most vulnerable in any future approach. 
That is why we requested a nine-fold increase in our FY10 appropriation 
for adaptation activities, to $350 million. We are committed to working 
with Congress to mobilizing this funding through various sources, 
including through the carbon market and other available sources.

    Chairman Berman. The gentleman from California, Mr. 
Rohrabacher----
    Mr. Rohrabacher. Oh, yes.
    Chairman Berman [continuing]. Who took Mr. Manzullo's time.
    Mr. Rohrabacher. Yes, I did.
    Let me just note that the use of the word climate change 
instead of--replacing global warming is itself a denial of 
global warming. Because that phrase came into existence as the 
scientific reality that it hasn't been warming for the last 9 
years and that the Arctic melt has reversed itself for the last 
2 years seems to be something that can be denied by suggesting 
that we change the wording now to climate change. So any change 
that takes place will justify a compromise in the legal 
protections that we have given our own people by signing some 
foreign treaty that compromises our constitutional rights, 
compromises our national sovereignty, and undermines American 
prosperity.
    When you are in Copenhagen, you might look up Dr. Lomborg, 
who is the former head of Denmark's Environmental Assessment 
Institute--and I might put this quote into the record: 
``Reducing CO<INF>2</INF> emissions will not make the world a 
better place to live.''
    And I submit for the record right now, Mr. Chairman, a list 
of 10 names of prominent, world-class scientists from MIT and 
other major institutions who totally deny this theory of man-
made global warming and the efforts to try to stampede us into 
making such agreements that we are talking about today that, as 
I say, are aimed at undermining the constitutional rights of 
our people and undermining our prosperity and our freedom in 
this country.
    [The information referred to follows:]<greek-l>Rohrabacher 
FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Rohrabacher. Mr. Stern, let me just ask you some 
specifics, rather than debating global warming itself, which I 
believe is a debatable issue.
    In performing your tasks, will you agree to alter or reduce 
or deny the protections now held by American people of their 
intellectual property rights, patent laws, and other type of 
protections for intellectual property for so-called green 
technologies?
    Mr. Stern. We have no intention of doing anything that 
would undermine or weaken intellectual property rights, Mr. 
Rohrabacher. We think that is quite essential to the whole 
project and innovation, which is, in turn, essential to getting 
this issue----
    Mr. Rohrabacher. So you would not----
    Mr. Stern. We are not going to undermine intellectual 
property.
    Mr. Rohrabacher. Would you agree to compulsory licensing 
fees for such green technologies?
    Mr. Stern. No, that is not in our----
    Mr. Rohrabacher. Thank you very much.
    Will you agree to differential responsibilities in emission 
reductions or in funding?
    Mr. Stern. We have said that we see a differentiation that 
is appropriate, in our judgment, as between developed and 
developing countries. Although developing countries, the major 
ones, need to do very significant things to make very 
significant reductions in their emissions compared to where 
they would be.
    Mr. Rohrabacher. So the American people are going to have 
to bear a much greater burden of other countries where maybe 
their dictatorial governments have prevented the type of 
economic progress that we have enjoyed here with the freedom in 
our country.
    Mr. Stern. We don't actually think there would be greater 
burden for the American people.
    Mr. Rohrabacher. What does differential mean then? I think 
that differential means that somebody is going to bear more and 
other people aren't.
    Mr. Stern. No. It means that there is a difference; that 
the nature of what we have to do and what they have to do is 
somewhat different in a way that relates to both state of 
development and standard of living and the like. And you can 
well end up with the reduction of emissions as compared to 
where they would otherwise be in a developing country that 
turns out to be just as much as what happens in the United 
States, even though the basic requirements are different. So I 
don't actually think that we are talking about a larger burden.
    Mr. Rohrabacher. I think that we could disagree on that.
    Mr. Stern. I accept that.
    Mr. Rohrabacher. Will you agree to pay compensation to 
vulnerable countries? And what would be an acceptable 
definition of ``vulnerable''?
    Mr. Stern. Well, it depends on what we are talking about. 
We think that adaptation assistance for poor countries, 
countries in sub-Saharan Africa, for example, and other 
vulnerable countries, absolutely should get assistance and 
adaptation. Compensation is sometimes used to mean something 
else. Saudi Arabia asks compensation for the loss of revenues 
that might ensue if there was a global warming climate change 
regime. We are not in support of that.
    Mr. Rohrabacher. Thank you very much.
    Mr. Stern. Could I make one other comment for the record, 
which is the original climate change agreement is the Framework 
Convention on Climate Change in 1992. It is not a new term.
    Chairman Berman. The time of the gentleman has expired; and 
the gentleman from Missouri, Mr. Carnahan, is recognized for 5 
minutes.
    Mr. Carnahan. Thank you, Mr. Chairman.
    I wanted to focus on I guess a challenge and an 
opportunity. One of the counterarguments that we hear often 
against the United States taking strong action is that 
countries like India and China are such large and growing 
emitters. I would be interested to hear some more detail on 
your opinion regarding our engagement with China and India, 
what we are doing to engage the international community to move 
them toward adopting appropriate policies.
    Mr. Stern. You know, Mr. Carnahan, we have to do what we 
need to do as the United States. So I don't think that--that is 
not dependent, in my judgment, on China and India. And yet what 
China and India and other major developing countries do is 
absolutely critical. As I said, virtually all the growth and 
emissions going forward is going to come from the developing 
world, and half of it--fully half of it is going to come from 
China alone.
    We have been engaged in an extremely intensive way with the 
Chinese from the time that we started earlier in the year. I 
have been to China myself three times. I have met with their 
lead negotiator probably nine or ten times. We have engaged 
with them at the level of the Secretary of State, level of the 
President, level of Secretary of Energy and others. So we are 
pushing hard. We are working with other allied countries, if 
you will, who are also pushing.
    Again, the thing that is really important to understand is 
that countries like China and India are actually doing a lot. 
They are not in the world anymore of saying we don't have to 
worry about this problem. There is nothing that we have to do. 
They are taking a lot of action. And my guess is, as you go 
forward in the years to come, they are going to only ramp that 
up in very significant ways.
    Where they are resisting--and it is a real problem--is in 
translating any of those actions that they are taking at the 
national level into an international agreement. If you can't 
get those actions translated into an international agreement, 
you don't have an international agreement.
    So that is a challenge. We are working hard at it. We have 
had--we are pushing them to move in that direction. I think 
there has been some movement in the context of my own 
conversations with them, but there are 5 weeks to go, and I 
don't know yet where that is going to land. But it is not the 
case and shouldn't be seen to be the case that they are simply 
sitting back and not taking action. They are quite focused on 
it.
    Mr. Carnahan. And closely related to that, the role of 
technology and innovation in terms of translating those goals, 
what they have done looking at certainly innovation that we 
have done here at home, what we have seen countries like 
Germany do in terms of incentives, in terms of setting 
standards for how they meet goals, they have done remarkable 
things with solar energy in a country that doesn't particularly 
have a lot of sun.
    So in terms of looking at some of those successes and some 
of the technology, talk, if you would, briefly about the role 
of technology and changing the game here.
    Mr. Stern. I think technology is the game. There are 
certain--if you look forward, if you look right now--there are 
a lot of things, technologies, on the shelf in terms of 
renewable energy and energy efficiency that can substantially 
get us where we need to be in the course of the next 20 years 
or so.
    But if you are looking at the long-range solution of the 
problem, it is going to come at the development of the new 
technology. We can either set the rules of the road in place 
through measures like the legislation that is pending, 
executive action, regulation for the EPA and other places; we 
can set the rules of the road in place to drive that technology 
revolution; or we can sit back, keep debating, keep not getting 
to where we need to go and watch that technology revolution 
happen in other places.
    Really, the competitive problem that we face in this 
country is not so much what is going to happen to exposed 
industries in the next few years. Those problems are real, and 
they should be taken care of. They are taken care of in the 
context of the House bill, and they should be taken care of in 
final legislation.
    But the real competitive problem that this country faces is 
if we don't act at full speed and watch the technology 
revolution be taken over by the Chinas and Indias and other 
developed countries that see the writing on the wall and act. 
We can be the leader here. Nobody has intellectual and 
financial capability like the United States. But we need to 
act.
    Chairman Berman. The gentleman from Illinois, Mr. Manzullo.
    Mr. Manzullo. Thank you, Mr. Chairman.
    Mr. Stern, you made the statement that new industries will 
grow up to help us comply with climate change, the so-called 
green technology. There is a March 2009 study by the University 
of Juan Carlos in Madrid, Spain, that showed Spain's experience 
in forcing a transition to renewable energy that has been 
terribly economically counterproductive. Based upon Spain's 
experience, the study concluded that the United States should 
expect a loss of at least 2.2 jobs on an average, nine jobs 
lost for every four so-called green job created. The study also 
concluded that, since 2000, Spain spent 571,000 Euros to create 
each green job.
    I live in manufacturing. That is my life. One out of four 
people who work in the district I represent earns their living 
dealing with grease and, many times, clean technology. What you 
are saying is totally incorrect.
    Do you think that one morning 535 Members of Congress or 
people from the administration woke up saying, ``Voila, let us 
invent green technology''?
    It doesn't happen that way. Government does not create 
jobs.
    Let me give you some examples.
    Danfoss is a Danish firm doing business in my congressional 
district, the world leader in electrical modulation machines.
    All-World Manufacturing, small group of guys got together. 
They have cut back about 75 percent of the costs of the power 
necessary to run hydraulic pressure pumps.
    Eclipse Manufacturing--leading the world in gas combustion 
burners--were making solar panels.
    And Rentech, over on the Mississippi River in a 
congressional district that has been suffering terribly from 
the loss of jobs, was set to have a $600 million Fischer-
Tropsch conversion process to clean coal as opposed to natural 
gas for feedstock for anhydrous ammonia and urea. As a result 
of Fischer-Tropsch, they could have been manufacturing diesel 
fuel without using petroleum, and all it lacked was lubricity.
    Now I have seen with my own eyes the suffering taking place 
in this country as a result of the statement that you made that 
government can create jobs from green technology. What you 
represented to this panel is nothing less than unilateral 
surrender.
    The Chinese and the Indians already have inked an agreement 
back in October, just this past last month, that they are going 
to coordinate efforts to combat any climate change treaty that 
has, as its core demands, that the developing world take the 
lead in cutting carbon emissions. So we just sit back and say 
the United States is going to fall on its knees, plead that the 
world follows the example and continue to destroy jobs.
    I mean, I know of people who are fastener manufacturers in 
Spain. They adopted cap-and-trade there. It did not work there 
because right across the Strait of Gibraltar there is a company 
in Morocco that is making the very same thing that doesn't have 
to comply with these highest standards.
    I just do not understand why the United States should 
unilaterally disarm--we are at 17 percent unemployment in the 
City of Rockford, Illinois. Add five points to that all across 
the Nation. That is 22 percent. One out of four families in 
Winnebago County, Illinois, is on public assistance; and many 
have lost their jobs in manufacturing because of these things 
and the statements that you want to make them have even more of 
a loss of jobs.
    Do you understand what I am saying? Have you talked ever 
talked to the people in manufacturing about the impact?
    Mr. Stern. Well, I actually grew up in a manufacturing 
family. But that is neither here nor there.
    Congressman, I don't think anybody lacks sympathy for what 
is going on in the country with respect to the recession, but 
let me just say I absolutely did not say that government 
creates the jobs.
    Mr. Manzullo. You did, too. You said, as a result of 
government policies that green jobs will be hatched.
    Mr. Stern. What I am saying is I think there are rules of 
the road that can be laid down that can help stimulate the 
creation of jobs.
    You know, John Doerr, who is one of the legendary investors 
in California, talks about the transition to clean technology 
is something that has the promise to be several times larger--
--
    Mr. Manzullo. I am not talking about philosophy. I am 
talking about people who are losing their jobs. There is a big 
difference between philosophers and manufacturers.
    Chairman Berman. I am sorry. I feel like this won't get 
settled by one more sentence.
    Mr. Stern. I think you are right, Mr. Chairman.
    Chairman Berman. We have just started to vote. There will 
be four votes. Let us see how far we can get, because Mr. Stern 
does have to be back at the White House at 12:30, and we have 
an excellent second panel.
    The gentlelady from California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I would like to remind my friend, Mr. Manzullo, that we do 
have an industry that is suffering, the auto industry, because 
they refused to adjust to the world's needs for smaller, 
cleaner autos. And we can't just go about business as usual. 
Otherwise, we are going to have every industry in this country 
either being replaced overseas with something that is cheaper 
and something that will fit the needs of our global economy. We 
have a lot of work to do.
    So Mr. Stern, will you do me a big favor for all of us? 
Will you repeat one more time--you can take my time to do 
this--if you will, to outline what the United States is going 
to lose if we refuse to step up to the fact that we must make 
major changes and that we do have an industry that we must 
capture for the United States green industries? Just take your 
time. Talk about it. I am not going to shove it down your 
throat. I want you to know we need to hear this over and over 
again.
    Mr. Stern. Well, look, I think that there are probably 
three fundamental imperatives for the United States with 
respect to acting on this issue: First of all, the issue 
itself. Climate change, global warming, is getting worse. It is 
extraordinarily serious. We are on a track, if we don't change 
the trajectory that we are on as a global community, of running 
into very serious and indeed potentially catastrophic problems. 
So there is the underlying issue in itself which is quite 
serious.
    Secondly, there are really serious national security 
implications that flow from that. There has been a lot of 
writing about this lately. There was an excellent piece on it 
in the New York Times a couple of months ago, and it is--to say 
it is not just an environmental problem is not to downgrade the 
importance of environmental problems, but it goes way beyond 
that.
    The third issue, the one that was the focus of your 
question, is that this is going to be a monumental 
transformation of the global economy and a monumental 
transformation of the U.S. economy.
    We are talking about transforming the energy base of the 
entire economy and over a period of years, over a period of 
decades. We are either going to get out ahead of that and take 
a leadership role in developing the technology--both here and 
for export--which has the potential over time, not like that, 
not in 2 minutes, but over time in being a huge potential job 
creator all across the country.
    There isn't any country in the world that has got a better 
intellectual or financial base than the United States. So there 
isn't any reason why we shouldn't be a leader. And yet, if you 
look at what happened over the last number of years, industries 
that we started have gone elsewhere because we haven't been 
acting. Solar industry is in Germany. It is in Japan. China is 
charging forward on the development of solar and wind 
components.
    We can get back into this game, but we have got to do it 
with policy that provides the right incentives and the right 
tools. And we can do that. It is going to happen. Either we can 
buy the stuff from somebody else when we finally get around to 
believing that it is necessary, or we can get out in front of 
it and make this a potent driver for the U.S. economy for the 
21st century.
    Ms. Woolsey. I have 1 more minute just to ask you what if--
I am switching. We are in Copenhagen now. What would be the 
consequences if China signs on to an agreement that the United 
States does not?
    Mr. Stern. Look, I think that I am going to focus on the 
positive. I think that we can get an agreement. I think that we 
have a fair distance yet to go, but I actually think there is a 
deal to be done.
    I think the core is to get the major players all on board; 
and I think that, in general, with respect to your question, if 
you see the major players around the world, including the major 
developing players, prepared to step forward in a constructive 
way and in a way that is up to the task and the United States 
were to stay back in the shadows, that would be quite a 
troubling thing for the U.S.
    Chairman Berman. The time for the gentlelady has expired.
    The gentlelady from Nevada.
    Ms. Berkley. Thank you, Mr. Chairman.
    Your answer to Ms. Woolsey's first question was exactly the 
question I was going to ask you, but it was leading to the 
ultimate question. I believe that getting away from fossil fuel 
and harnessing energy is an economic necessity, an 
environmental necessity, and a national security imperative. We 
are obviously not getting our message out to a broader 
audience.
    What would you suggest that we do to take this message 
forward and share with the American people how serious this is 
and what the downside is of not acting and the upside is of 
actually doing something, and what are we doing wrong?
    Mr. Stern. Well, look, I think that the reality is--and the 
President has noted this on a number of occasions. I think it 
is inevitably true that it is inherently difficult from the 
point of view of the focus of the public to be confronting this 
issue right in the middle of a global recession. What I sort of 
say sometimes is there may be a sinkhole in your backyard which 
is extremely threatening and dangerous, but if your house is 
burning down, you don't have a chance to quite look at it.
    So there is a certain problem, I think, in terms of public 
communication, people having been understandably focused on 
their jobs, their homes, their health care, et cetera. But, at 
the same time, I believe it was Mr. Crowley who said this is 
the moment to act. We cannot look at the economic challenge and 
say, well, we will put this problem off.
    We are creating new infrastructure all the time. We are 
creating new power sources all the time. We have to make these 
low carbon, and we have to make these green, and we have to get 
on the right side on developing the type of technology that I 
was talking about.
    I think we need to keep talking. Members of Congress need 
to talk. We need talk from the administration, the White House, 
and the agencies; and we need to communicate a message that I 
think is fundamentally twofold: One is, the status quo is not 
sustainable. We have to change this. If you don't like a 
proposal that you see, then you better explain what you do 
instead. The status quo is not sustainable.
    And, B, there is a huge, huge opportunity here that we need 
to avail ourselves of, as I have been discussing before.
    So there is a real legitimate threat which we cannot 
ignore, and there is a real legitimate opportunity that we must 
take advantage of.
    Chairman Berman. The gentlelady is expired.
    Oh, I thought you were done.
    Ms. Berkley. My time has expired. I have not expired.
    Chairman Berman. The gentlelady yields back her time but 
not herself.
    The gentleman from Massachusetts, Mr. Delahunt, will be our 
last questioner.
    Mr. Delahunt. I will just make some observations.
    Has there been a calculation as to the potential in terms 
of the economic loss, in terms of what will happen if we don't 
address this issue?
    You know, there are some people--and I think you have 
sensed it today--that still believe that the world is flat, 
okay? You know, and thank God Columbus discovered America, how 
they would hold on to that. That is what we are faced with. 
That is the problem with communication. The world is round, the 
science is overwhelming, but there are those--and many of them 
are on the other side of this aisle that are within the 
Republican Party--people who think the world is flat. That is 
not the case.
    We understand that we have to address it. All I know is 
that we sit here and, time after time, we find ourselves having 
to fund enormous numbers, Federal dollars, in terms of 
addressing natural disasters. What is that cost? Put aside the 
economic, but, as we look, has anyone developed a model that 
looks forward?
    Mr. Stern. Congressman, it is an excellent question, 
actually. Because what you see when you see even the EPA number 
that I was talking about earlier of $100-175 a year, virtually 
all of those models explicitly set aside the question of the 
cost of inaction. They are not factored into any of those 
models.
    Now the guy who has done the work on this----
    Mr. Delahunt. How many Katrinas can we afford?
    Mr. Stern. That is exactly right.
    The guy who has done the most work on this is Nick Stern, 
the former Chief Economist of the World Bank and from the U.K. 
He published a lengthy study that the U.K. Government had asked 
him to do, and he made estimates that I don't remember the 
exact numbers, but they go up into the several percentage 
points of GDP lost over the course of the next 50, 75 years.
    Mr. Delahunt. Rather than 2 percent of GDP, give me a 
number. Half a trillion, 10 trillion? What is it?
    Mr. Stern. I can get back to you on that. But the numbers 
are very, very large. You are talking about 4-5 percent of GDP 
out to----
    Chairman Berman. $280 billion a year just to start.
    Mr. Stern. A lot more than that.
    Mr. Delahunt. Do you hear that, Mr. Chairman? A lot more 
than that.
    Chairman Berman. U.S. proportion.
    Mr. Stern. But if you look into the future worldwide, it is 
a very large number.
    Mr. Delahunt. How many natural disasters can we deal with 
in terms of our economy here? Look what Katrina has done to the 
national economy and will continue to do.
    And I agree with you on your other issues. But, you know, 
you are right. The world--the globe isn't flat. It comes down 
to that.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Delahunt. Yes.
    Mr. Faleomavaega. I just want to say to my good friend, 
with a little sense of humor, you said about Columbus 
discovering America. I say that, while my ancestors were 
traveling, voyaging thousands of miles, different islands, 
Columbus actually got lost.
    That is just a little humor that I wanted to add.
    Mr. Delahunt. You have never been lost.
    Mr. Faleomavaega. And the fear among our friends in Europe 
was that you would go over because the world was flat.
    Ms. Jackson Lee. I just have one question for the minute 
remaining.
    Chairman Berman. We have 1 minute to vote. If you want to 
preside right from there, just take the gavel.
    We will be back for the second panel.
    Take a minute with the gentlelady. I am done.
    Ms. Jackson Lee [presiding]. I won't get an answer from 
you, but maybe I can get it in writing.
    I am interested in whether or not, since we know the kind 
of world we live in and the various interest groups, such as 
coal in the United States, and the contributors to our complex 
climate situation, what outreach has been done to energy 
companies--for which, by their definition, the world is energy. 
It could be green. It could be biofuels, et cetera. How can we 
get them to the table?
    And I will listen to the gentleman and yield on the way to 
the vote.
    Mr. Stern. I think there has been a great deal of outreach 
done in that regard. That tends to be driven more by the White 
House and the agencies that are focused specifically on the 
domestic issues.
    I think there has been an enormous amount of outreach done 
to energy companies of all sorts. Some are at the table. Some 
are actually supportive, and some are opposed. And I think that 
there has been a lot of effort, continues to be effort, both by 
the administration, by the White House, Department of Energy, 
and others and by proponents of legislation on the hill.
    Ms. Jackson Lee. I would appreciate getting from the State 
Department, getting from you, a list of either those coming 
together at those meetings. I would assume they are open so you 
can get a list.
    [The information referred to follows:]

Written Response Received from the Honorable Todd D. Stern to Question 
      Asked During the Hearing by the Honorable Sheila Jackson Lee

    The Department of State regularly meets with a range of industry 
representatives, as well as NGOs representing environmental, labor, and 
other interests both at their requests, and also prior to large 
meetings of the UNFCCC and other key processes. Representatives from 
major industry associations are invited to these meetings, as well as 
are representatives from individual companies that have taken a 
particular interest in the negotiations.
    In addition, the State Department and the Department of Energy 
hosted three stakeholder meetings in July and September, including 
representatives from industry and NGOs, and soliciting input and ideas 
in the following areas:

        <bullet>  Carbon Capture and Sequestration: July 9, 2009

        <bullet>  Solar Energy: July 21, 2009

        <bullet>  Building Energy Efficiency: September 10, 2009.

    In addition, we have held regular briefings with industry and NGO 
representatives on the UNFCCC process. These included briefings with 
business and industry representatives on August 19, September 24, 
November 10, and November 30, in addition to briefings during the 
Copenhagen Climate Conference itself.
    Other agencies also have their own outreach processes focused on 
outreach to members of civil society.

    Ms. Jackson Lee. I think congressional members can be part 
of this whole journey that we have to take beyond even the 
writing of legislation, because we do have an issue that we 
must get our hands around.
    I assume at this point the meeting is now in recess.
    [Recess.]
    Chairman Berman [presiding]. The committee will come back 
to order.
    At least one of the panelists is aware of the strange 
nature of our schedule.
    Now I would like to introduce the panel.
    Tim Wirth was the lead U.S. negotiator for the Kyoto 
Climate Conference until he resigned to become the president of 
the United Nations Foundation. In this role, he has worked to 
develop the framework for post-Kyoto climate negotiations and 
to advance the standards of energy efficiency in the United 
States and abroad with the Energy Future Coalition.
    As a Colorado Senator, he focused on environmental issues, 
particularly climate change. In 1988, he organized the Hansen 
hearings on climate change and collaborated on the 
groundbreaking idea of cap-and-trade that was included in the 
Clean Air Act amendments.
    Senator Wirth was recently honored as a Champion of the 
Earth by the U.N. Environment Programme; and, for those of us 
who have been around a long time, we knew him as a really 
wonderful House Member and really one of the critical leaders 
on environmental issues and on a lot of other issues as well.
    Eileen Claussen is the president of the Pew Center on 
Global Climate Change and Strategies for the Global 
Environment. Ms. Claussen formerly served as the assistant 
secretary of state for oceans and international environmental 
and scientific affairs under President Clinton. She also served 
as senior director for Global Environmental Affairs at the 
National Security Council and chair of the U.N. multilateral 
Montreal Protocol Fund.
    Her previous experience also includes work on the depletion 
of the ozone layer, the Clean Air Act, and EPA's energy 
efficiency program, including the Energy Star Program. Ms. 
Claussen is a member of the Harvard Environmental Economic 
Program Advisory Panel.
    Steven Groves is the Bernard and Barbara Lomas fellow at 
the Heritage Foundation's Margaret Thatcher Center for Freedom. 
Mr. Groves is responsible for developing the Freedom Project, 
part of the Foundation's Leadership for America campaign to 
advance the cause of protecting American sovereignty, self-
governance, and independence while promoting Anglo-American 
leadership on issues relating to international political and 
religious freedom, human rights, and the strengthening of 
democratic institutions.
    From 2003 to 2006, Mr. Groves was senior counsel to the 
U.S. Senate Permanent Subcommittee on Investigations, where he 
played a lead role in the subcommittee's investigation into the 
United Nations' Oil-for-Food program. Mr. Groves earned a law 
degree from Ohio Northern University College of Law in 1995 and 
a degree in history from Florida State University in 1992.
    Thank you for coming. Sorry for the interruption, and your 
entire statements will be part of the record.
    Senator Wirth.

STATEMENT OF THE HONORABLE TIMOTHY E. WIRTH, PRESIDENT, UNITED 
NATIONS FOUNDATION AND BETTER WORLD FUND (FORMER UNITED STATES 
                            SENATOR)

    Mr. Wirth. It is always a delight to be back here and see 
so many friends and have a chance to get into this remarkably 
interesting issue with you.
    I would say, by way of beginning, I listened carefully to 
the Q&A, and I would give credit to the minority. I thought 
that Congresswoman Ros-Lehtinen raised some very interesting 
issues that I hope the committee has a chance to discuss. 
Because those questions of common but differentiated 
responsibilities, cost of adaptation, overall cost to the 
economy, are exactly the ones that we all have to come to 
understand. And if we can help you and the minority, Mr. 
Chairman, to organize roundtables or discussions on those, we 
would be delighted to help. They have to be understood. Members 
of this committee have to understand them.
    I listened to Mr. Crowley's, I thought, very, very good 
statement about, even at times of crises, we can move ahead; 
and I thought it was very eloquent. We think about what 
happened during the Civil War, the worst crisis in our Nation's 
history. While that was going on and the Congress was dealing 
with that, the Congress also did the State and Land Grant 
University Act, the Railroad Act, the Homestead Act. It was an 
extraordinarily creative time. And the fact that we can walk 
and chew gum--in the words of a famous American--at a time of 
crisis we can deal with that but also deal with this issue.
    If I might, Mr. Chairman, just be to very simple about this 
and to try to boil this down. I think you can make this issue 
as complicated as you want, or you can try to boil it down to a 
few simple directions.
    I listened to Todd Stern, who is an old and good friend of 
mine. If I were sitting where he is, I would be trying to 
transmit to people the fact that we can, in the United States, 
commit to getting to, by 2020, a 20-percent reduction that in 
fact is a benefit to our economy. And we can in fact, long 
term, commit to the 80-percent reduction and 50-percent global 
reduction that is going to be necessary by 2050.
    Now, in answer to the question of the committee, those 
become part of the post-Kyoto framework. You have got to have 
the numbers. They are not the makers or breakers, but the U.S. 
is going to have to commit to those numbers.
    Just running through this very rapidly, if you follow the 
legislative route and Waxman-Markey gets you 14 percent, the 
Kerry-Boxer bill gets 17 percent--WRI estimates that Kerry-
Boxer gets 23 percent. So if you follow the legislative route, 
we are going to get to that 20 percent. You are going to see 
that on the horizon through the ways in which the legislative 
process says it is going to move.
    If that weren't to happen, do you get hung out, as we were 
in Kyoto, by having made commitments you can't honor? No, you 
can go back the other route and go the administrative route. I 
have in my testimony data which is very well documented that 
you can follow: Efficiency, renewables, and activities on 
deforestation. And just those three measures alone, Mr. 
Chairman, that gets you 15 of the 20 percent that you need.
    You can do all of those through actions of the EPA, and 
through renewable energy standards, efficiency standards, and 
actions related to forests. You get 15 percent. You add on top 
of that what we should be getting from automobiles--we are 
going to do that--and add on top of that a transition from coal 
to natural gas for at least those clunker power plants that 
were--when you and I were young Members of the Congress, we 
battled over the Clean Air Act under Henry Waxman's lead. The 
idea was to get rid of these clunker power plants, those old 
ones. They have managed to evade the law and stay in action. 
Those ought to be wiped out.
    If you do efficiency, renewables, forestation, take credit 
for automobiles, and get rid of clunkers for the transition to 
our own domestic fuel, natural gas, you get 20 percent as well.
    So we can make this incredibly complicated and battle over 
one thing or another, or you can go back and say, yes, we can 
accomplish this. This is how we go about doing it, and these 
are the benefits from that.
    I tried to include a number of those items in my statement, 
Mr. Chairman.
    The last point I would make is I think the committee also 
ought to pay very, very close attention to the United States-
China relationship. It is not only extraordinarily important, 
but I think we are missing the boat on that.
    I just came back from 3 weeks in Asia. We heard from 
American business, from Chinese business, American leadership 
at all levels that we are not paying the attention that we have 
to pay to this most important of all relationships. They are 
the largest polluter; we are the largest economy. They are the 
most rapidly developing country; we are the biggest developed 
country. We are a mirror of each other in so many ways. We have 
agreements, but we are not following up on them.
    And we have heard--and I have got some of that language, 
and I could share others with you. We heard over and over and 
over again, the United States has got to pay greater attention, 
put real weight into this United States-China relationship. 
That can be done by having a high-level person representing the 
Secretary of State, at a high level, to be the person making 
the interagency process work.
    You remember Gore-Chernomyrdin at that time was a good 
example when we were working on the United States-Soviet 
relationship. And that really worked. We created that special 
capability. You all can help to get that done, examine this and 
help to get that done as you are working on the 
reauthorization.
    If I were you, I think one of the most interesting--and I 
am not telling you how to do your job--but I think one of the 
most interesting hearings to have would be to get people to 
come in and talk about what this relationship is, what can be 
done, and how do we accelerate taking advantage of what both 
sides want to do, instead of pointing fingers at each other, 
saying, you haven't reduced it, you haven't done that, or 
whatever. That is such tired old language, and it's getting us 
nowhere. At a time when our leadership says it wants to move, 
their leadership says it wants to move, how do we get the two 
together? Well, you have to organize administratively to get it 
to happen, and it is absolutely doable. So we would be 
delighted to help you on that, Mr. Chairman. It is an 
incredibly promising and interesting area.
    We thank you for having this hearing in this area, and your 
leadership is remarkable. And you have got some great members 
on your committee and flat-earthers and so on. A little humor 
in the top row is always helpful.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Wirth 
follows:]<greek-l>Timothy Wirth deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, Senator Wirth.
    Ms. Claussen.

  STATEMENT OF THE HONORABLE EILEEN CLAUSSEN, PRESIDENT, PEW 
CENTER ON GLOBAL CLIMATE CHANGE (FORMER ASSISTANT SECRETARY OF 
STATE FOR OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC 
                            AFFAIRS)

    Ms. Claussen. Thank you very much for the opportunity to be 
here. I am going to focus a little bit on where the 
negotiations are and what I think we need to do.
    To be fair and effective, a new climate agreement must 
establish binding, verifiable commitments for all of the 
world's major economies. These commitments can vary in form. 
The United States and other developed countries, we believe, 
should commit to absolute, economy-wide emission reduction 
targets. China and other major developing countries should have 
the option of assuming other types of commitments, such as 
intensity goals, efficiency standards, or renewable energy 
targets.
    Let me just highlight the core issues in achieving such an 
agreement and then describe what we believe would be desirable 
and what might, in fact, be feasible at the negotiations next 
month in Copenhagen
    First is the issue of developed country targets. All 
developed countries, except the United States, have now 
formally adopted or proposed emission targets for 2020. The 
proposed targets in the climate bill passed by the House and in 
the Kerry-Boxer bill before the Senate are reasonably 
comparable to those put forward by other countries if we assume 
a 2005 baseline. Viewed against a 1990 baseline, they are 
clearly not comparable. But, no matter the baseline, when taken 
together, these numbers fall short of the mid-term reduction 
levels many believe are needed to avoid dangerous climate 
impacts, in other words, 11-18 percent below 1990 levels, 
rather than 25-40 percent.
    The second issue is developing country commitments. It was 
a major step forward when developing countries agreed 2 years 
ago in Bali to negotiate nationally appropriate mitigation 
actions. China and other major developing countries have now 
adopted national climate strategies outlining steps they are 
taking and additional steps they could take with international 
support. The challenge is to translate these types of actions 
into international commitments which mean, in our view, 
developing a new legal framework that inscribes developing 
countries' efforts alongside those of developed countries in a 
way that is clear, quantified, and verifiable.
    A closely related issue is support for developing 
countries. In the 1992 Framework Convention and again in Bali, 
the United States and other developed countries agreed to help 
developing countries reduce their emissions and adapt to 
climate change. A new agreement must include a finance 
mechanism that delivers on those promises. Both the House bill 
and the proposed Senate bill would use some allowances under a 
cap-and-trade system to support reduced deforestation, 
adaptation, and clean technology deployment. Final legislation 
must retain these provisions so the United States is able to 
commit substantial support for an initial period as part of a 
balanced climate agreement.
    A fourth important issue is verification. As agreed in 
Bali, the actions of both developed and developing countries 
must be verifiable. This requires annual emission inventories 
from all major emitters, regular reports from countries on 
their implementation efforts, and international review of both. 
There also must be a fair and open process leading to a clear 
determination of whether or not countries are fulfilling their 
obligations.
    The fifth and final issue is the legal form of a new 
agreement. We believe the best final outcome is a single, 
comprehensive legal instrument under the Framework Convention 
that succeeds and incorporates elements of the Kyoto protocol. 
This agreement should be ratified and binding.
    These are difficult issues; and, despite progress, major 
differences remain among the parties. In light of this, we 
don't believe a full and final agreement is possible in 
Copenhagen. The very best outcome, we believe, would be an 
interim political agreement defining the basic legal and 
institutional architecture as a basis for then negotiating 
specific commitments in a final legal agreement. But, for this 
to occur, we will need to make substantial process on all of 
the five issues I have just discussed.
    Short of a comprehensive agreement on a new framework, the 
best Copenhagen may be able to achieve is a political 
declaration setting a long-term objective of two degrees and 
perhaps providing some near-term support in areas such as 
adaptation and deforestation. In all cases, it would be 
important to establish a new end date for the negotiations in 
2010.
    Thank you very much.
    [The prepared statement of Ms. Claussen 
follows:]<greek-l>Eileen Claussen deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. A new end date for the ultimate goal?
    Ms. Claussen. Yes. Absolutely.
    Chairman Berman. Mr. Groves.

  STATEMENT OF STEVEN GROVES, J.D., BERNARD AND BARBARA LOMAS 
FELLOW, THE MARGARET THATCHER CENTER FOR FREEDOM, THE HERITAGE 
                           FOUNDATION

    Mr. Groves. Thank you, Mr. Chairman, for inviting me to 
testify today.
    In response to the question posed by the title of this 
hearing, Is There a Successor to the Kyoto Protocol, the answer 
is certainly yes. I can say so with confidence. Because, to 
paraphrase Ronald Reagan, ``A United Nations program is the 
nearest thing to eternal life we'll ever see on this Earth.''
    The international community will press forward on a climate 
change treaty regardless of what happens in Copenhagen. The 
question is whether and to what extent the United States will 
feel compelled to submit to an onerous treaty regime.
    By now, we have all heard the common international refrain 
that the United States must exhibit leadership on this issue. 
U.N. Secretary-General Ban Ki-Moon recently said, ``All the 
world is now looking to the leadership of the United States and 
President Obama.'' But at what cost does American leadership 
come?
    The draft 181-page negotiating text proposes a complex, 
comprehensive, legally binding multilateral convention, the 
nature of which poses a threat to American sovereignty. Not 
only are the proposed terms controversial, the manner in which 
those terms would be enforced would submit the United States to 
an unprecedented monitoring and compliance regime. The United 
States would apparently be required to agree to an intrusive 
review of both its domestic energy policy and its compliance 
with obligations to transfer wealth and technology to the 
developing world.
    The current draft negotiating text is replete with 
references to mechanisms for compliance, monitoring, 
verification, and enforcement and requires that financial 
commitments and transfers of technology be legally binding.
    Protecting U.S. interests in the Copenhagen negotiating 
environment will be challenging. Unlike bilateral treaty 
negotiations, the United States will be only one of 192 
countries participating in the process. Such multilateral 
negotiations make it difficult, if not impossible, for the 
United States to dictate terms most favorable to it. Large 
voting blocks--such as the European Union, the African Union, 
and the G-77 developing countries--will likely pool their 
votes, coordinate their negotiating positions, and may attempt 
to effectively isolate the United States.
    Despite these challenges, the United States may demonstrate 
genuine leadership in climate change negotiations both in 
Copenhagen and thereafter. Such leadership, however, should be 
exercised in a manner that protects U.S. interests while 
preserving American sovereignty. To do so, the United States 
must first determine what the domestic consequences of 
ratifying a post-Kyoto agreement are and then negotiate with 
the international community on those terms.
    Before engaging with the rest of the world regarding the 
final terms of a universal climate change treaty, the United 
States must first ascertain whether the international 
obligations of the post-Kyoto agreement are domestically 
feasible, both politically and economically. Given the sharply 
divided opinion on climate change here in Congress and across 
the country, it is unlikely that the U.S. is yet in the 
position to make sincere commitments to the international 
community, and making international promises that the United 
States is unable to keep--as was the case when the U.S. signed 
the Kyoto Protocol--does not demonstrate American leadership. 
Neither does capitulating to demands from U.N. Officials. 
Pledging to reduce greenhouse gas emissions without first 
determining how those reductions will affect our economy does 
not constitute leadership, in my view.
    Instead, Congress should continue to study the impact that 
a comprehensive climate change treaty and corresponding 
legislation implementing that treaty would have on our economy, 
our energy sector, our workforce, and our treasury. If we knew 
what effect the proposed climate change treaty would have on 
American citizens, then Congress and the White House would be 
able to work toward a true bipartisan consensus on climate 
change legislation. Only then will the United States be in a 
position to promise internationally what can be achieved 
domestically.
    Such an approach would allow the United States to negotiate 
with the international community in good faith, while 
protecting U.S. national interests and preserving American 
sovereignty. That approach, I submit, would demonstrate genuine 
American leadership.
    Thank you.
    [The prepared statement of Mr. Groves 
follows:]<greek-l>Steven Groves deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, and thank you all.
    I am going to first recognize the gentlelady from 
California, Ms. Woolsey.
    Ms. Woolsey. Thank you very much, Mr. Chairman.
    Senator, it is nice to see you.
    I have a question for both Senator Wirth and Ms. Claussen.
    Mr. Groves, we just heard him; and he is saying that 
American sovereignty could be at risk or is at risk if we sign 
a global climate change agreement. I need to know, do you agree 
with this assessment and what kind of precedence is there for 
the U.S. signing such an agreement? What are the risks of our 
not doing it?
    Mr. Wirth. Let me begin by commenting on Eileen Claussen's 
testimony.
    We were just saying here if we took that statement that I 
had made and the one she had made and put those together, you 
have a pretty good framework for what we could do; and that 
begins to answer your question, Congressman Woolsey. The 
comments that I heard as<greek-l>, quote, deg. ``intrusive 
review''--the way we do this, we have a very open process. Our 
data is available through the Energy Information Administration 
and so on. This is hardly something we are hiding from the 
world.
    The question is the other side. How do we get the rest of 
the world to report their data? That is what we want to have 
happen. It is scarcely<greek-l>, quote, deg. ``intrusive 
review.''
    Transfer of technology? Well, just the reverse is rapidly 
happening; we are going to be asking them for their technology 
because they are moving ahead of us so much more rapidly.
    One of 191, and they could isolate the U.S.? Well, we have 
the veto at any time, so I wouldn't worry about that.
    Protect the U.S. interests and not sign a climate 
agreement? We were the sixth country to ratify the Framework 
Convention on Climate Change in the fall of 1992. It is the law 
of the land. We have already done that. What are we worried 
about? That is the framework in which we are operating. Now we 
are trying to implement the framework.
    And, finally, the question was raised that we have to know 
what we are doing economically. Well, we have a very clear 
economic analysis. McKinsey has done that in this country 
extensively. Stern has done that extensively globally. We have 
got those numbers. We have to read those.
    So the answers are all there to doing it.
    The big question is the one that you asked. What happens if 
we don't do this? Then the data gets really dangerous, and the 
economic downside is very, very serious and very real to us, 
much less the human suffering that occurs, the dramatic threat 
to international security from vast flows of refugees because 
of the hunger issue and the water issue that is pervasive 
elsewhere. Not acting, there is no, no reason for us not to 
act. It would be immoral and wrong for us not to act.
    Ms. Claussen. Let me add one point to what Tim just said.
    It appears that Mr. Groves is looking at this in a funny 
way. Because we have already passed legislation through the 
House. The Senate is engaged in trying to pass legislation 
there. Those will set limits on greenhouse gasses for us. And 
in the event this doesn't happen very fast, we do have the 
Clean Air Act; we do have all kinds of authorities under the 
Department of Energy's office to set efficiency standards and 
other things. So it is not as if we haven't looked at the 
economics of all of this, and it is not as if we are not going 
to act.
    The value of an international agreement is that everybody 
else will start acting and make their data available and move 
forward; and, as a global matter, you have to do that on an 
issue like this.
    So the issue, I think, is not us. We are going to go ahead 
and do this anyway. The issue is making sure that others do 
their fair share.
    Ms. Woolsey. Thank you.
    Changing the subject slightly, same topic. I was part of a 
United States-China relations conference about 1 year ago. And 
one of the scholars--Chinese scholars said that the United 
States had--it is the same quotes--used more than our share of 
the resources and soiled more than our share of the world, and 
now it was their turn.
    I told them they didn't get a turn because, if they did, 
the world wouldn't be around for their children and our 
children.
    But what does the United States need to do to work with 
China so that--I mean, they can't do what we did. So what do we 
have to do to prove and make that balance?
    Mr. Wirth. Again, it is the kind of question, Mr. Chairman, 
that deserves a lot of discussion; and this committee is a 
great forum for doing that.
    I think that if you listen to the United States and China 
today, the rhetoric is very, very different. When Eileen and I 
were doing Kyoto, it was terrible. There was no discussion, 
none whatsoever.
    Today, we are getting beyond the finger-pointing and ``You 
put this up there to begin with''; ``No, you are the biggest 
polluter today.'' We are getting beyond that, and the 
opportunity now is to use this issue as the fulcrum--I believe 
you can use this issue as the fulcrum of the relationship 
between the two superpowers.
    I mean, we are so overwhelmingly bigger. India we are going 
to watch very carefully. We have got a set of relationships 
there and others, but this is the number one relationship. And 
the opportunities that we have to take advantage of 
economically--how do we understand each other in terms of 
tariff issues? How do we share technology? How do we go ahead 
on some of these very, very big issues that are out there? It 
is a terrific set of opportunities.
    Chairman Berman. The gentleman from Illinois, Mr. Manzullo, 
is recognized for 5 minutes.
    Mr. Manzullo. Thank you.
    Senator, on May 18, 1993, when I was a freshman, having 
been a Member of Congress for 4 years, you were testifying 
about this same issue; and I appreciate your perseverance and 
your dedication, your hard work on it.
    I asked you a question back then--and this is not an ``a-
ha'' moment but just to bring it to your remembrance--as to 
whether or not there should be an economic impact study on the 
people that would be involved and taken into consideration with 
environmental legislation.
    The answer that you gave is, ``I know the President agrees 
with you.'' We have to be very careful about the impact on 
people. The impact on the deficit and the impact on interest 
rates are very significant indeed. If we are not able to 
alleviate that burden, it would be enormously difficult for our 
children and grandchildren to enjoy the level of living this 
generation has had.
    My question is the same as it was back 17 years ago on the 
impact that this will have on people, especially the areas in 
manufacturing. That is, going into the negotiations in 
Copenhagen, signing an agreement to further reduce emissions, 
has anybody ever got involved deeply with manufacturers as to 
what impact this will have on the loss of jobs?
    I know the Brookings Institute on the cap-and-trade bill we 
just passed said we would have a loss of about 8 million jobs. 
But when you are at enormously high unemployment nationwide--
and the district that I represent, the biggest city at 17 
percent, and for any area in the country just add 5 percent, so 
we are over 22 percent--and when one out of four families is on 
public assistance, don't you think it is absolutely totally 
imperative to have some type of measurement as to the impact of 
this on manufacturing?
    And thank you for your answer 17 years ago.
    Mr. Wirth. It was a good answer 17 years ago, and it is a 
good answer today.
    And the reason that we have to get an answer to this is, as 
you suggest, is that what is happening in the Middle West, in 
your area, is an economic catastrophe; and we have to figure 
out how to build ourselves out of that. We can't blow up the 
same balloon again, as you know. What is the new balloon going 
to look like? What is the new economy going to look like?
    If I were sitting where Larry Summers is sitting or where 
the President is sitting and sitting down and talking to you 
about what we do in Illinois, I would start by reaching out to 
people like Caterpillar, who have said there are tremendous 
opportunities here. If we do the climate change legislation 
right--we are a major employer in your State. They have said, 
if we do this in the right fashion, this could be a great 
opportunity of rebuilding lots of industries and new industries 
in this country. This is Caterpillar.
    Mr. Manzullo. I understand that.
    The reason I raise that is I don't see any quantitative 
studies--we have seen people talking about inventing jobs. 
People don't want new jobs that are invented by the government. 
They want the same jobs they have, those jobs that have been 
lost because of the downturns of the economy, those jobs that 
are still necessary. And those jobs, in fact, Senator, that are 
really being hurt by cap-and-trade that----
    I mentioned earlier, Rentech makes anhydrous ammonia and 
urea-related products. They were switching to the Fischer-
Tropsch process. We have a $600 million investment in my 
congressional district. It would have really spawned green 
technology all the way across the top part of the State of 
Illinois. But just out of fear, out of what Senator Obama said 
at that time about emissions tax or cap-and-trade, they pulled 
the plug on that massive investment; and that has really hurt 
manufacturing.
    Mr. Wirth. Rentech is headquartered right at the edge of 
Denver. The guys that own Rentech are there. I know the 
situation very well and the opportunity.
    Going back to the numbers, there is a very clear gross 
economic analysis done by McKinsey--and I referenced some of 
that in my testimony, and we would be glad to share with you 
sort of the internals of that data if you would like to look at 
it--as to what the opportunity is for growing out of this.
    A second step, it seems to me, relates to truly looking at 
a lot of the new industries and a lot of the new energy 
opportunities. Let me cite one in particular.
    In Illinois, you have----
    Chairman Berman. Senator, can you come back to this in the 
next round?
    Mr. Wirth. I would be happy to come back to it, because it 
is the key question. It is the one we have to get on, and the 
Congressman is absolutely right.
    Chairman Berman. Anybody object to a unanimous consent to 
let Mr. Manzullo have an additional minute?
    Mr. Manzullo. Thank you, Mr. Chairman.
    Mr. Wirth. I will just give you one example on fuel.
    We have been very dependent upon coal--and that has been 
driving a lot--and low prices, and somehow we have to figure 
out how do we deal with the coal question because coal is so 
polluting. Well, is there a shift that we can make?
    Well, we have been given this enormous gift, as you 
probably know, of these discoveries of shale gas. We now have 
more natural gas reserves in the United States. Well, if we are 
going to make the shift toward a low-carbon economy, along the 
way you want to use low-carbon resources; and a lot of those 
are in Illinois. There are significant resources in Illinois. 
So this is an opportunity as well. If we get the rules right, 
how do you generate the kinds of industries and changes?
    Final point that I would make is really looking very 
carefully at agriculture. There are solutions from the land 
that are being developed. Some are coming to understand what 
can be done in terms of sinks of carbon, different kinds of 
fuels that can be grown, that we can grow on our own which make 
a great deal of difference, and different nutritional crops at 
a time when the nutritional value of foods is going to decline 
because of climate change. There are opportunities coming out 
of the great State land grant university system. You have one 
of those in Illinois. That can be also another significant 
opportunity.
    Mr. Manzullo. Thank you for the additional time, and I look 
forward to a cup of coffee to get the rest of the answer.
    Chairman Berman. The gentleman from California, Mr. 
Sherman, is recognized for 5 minutes.
    Mr. Sherman. Thank you, Mr. Chairman. Thanks for having 
these important hearings.
    The United States is often at a disadvantage in trying to 
get manufacturing jobs. We still do very well in terms of 
developing the technology, marketing it, putting it together. 
Critical to that is protection of intellectual property rights.
    Now, the House has spoken in strong support for IP 
protections in numerous House-passed bills. But, Mr. Groves, 
how well are we doing in insisting that, especially with regard 
to American innovations in the area of green technology, that 
this will be protected and that the protection will not just be 
a protection of the U.S. market?
    All too often we want to say, well, we have protected 
intellectual property. At least the Chinese can't sell the 
counterfeit goods here in the United States. And there is a lot 
of money to be made in the U.S. market. But we are being 
promised global exports when we develop the technology. How 
effective are we in making sure that American intellectual 
property rights will be protected not only with regards to 
devices used here in the United States but around the world?
    Mr. Groves. Thank you, Mr. Sherman.
    I was very pleased and very heartened to hear Mr. Stern's 
testimony--or I believe it was in answer to a question 
regarding the IPR issues--that the two options of the four IPR 
options that are really on the table that are against 
protections for intellectual property are a non-starter for our 
delegation. They are still on the table. They involve 
compulsory licensing of specific technologies for mitigation 
and adaptation and immediate exclusion of new and revocation of 
existing patents in developing countries, which would be 
anathema to starting new green technologies in this country, 
especially if we are going to be exporting them under a new 
treaty regime, the post-Kyoto commitment period. So I was very 
happy to hear Mr. Stern's response to those questions.
    Mr. Sherman. So at least our bargaining position is that we 
don't want in the agreement some additional text which 
additionally roads international property rights. But, right 
now, the international regime is not too friendly to 
intellectual property rights. It is on paper.
    Is there anything--and do we need anything--in Copenhagen 
that provides for penalties for those who violate existing--
and, hopefully, under this treaty--undiminished intellectual 
property rights?
    Mr. Groves. It would be a good opportunity. If the United 
States is ultimately going to agree to be part of such a 
universal treaty, those types of technology transfers can be 
monitored better than your average intellectual property when 
we are talking about DVDs and movies and other inventions. So 
protections and penalties for infringement on IP rights would 
be a good addition to the treaty, and I don't think it would be 
outside of the scope of the negotiations.
    Mr. Sherman. I wonder if we have a comment from either of 
the other two witness.
    And I will ask you to comment, do we have a prospect not 
just for battling against bad provisions on intellectual 
property but actually putting into this agreement protections 
that go beyond the currently ineffectual provisions in 
international law?
    Ms. Claussen. I can say that if you look at the text right 
now, it includes virtually every country's proposals. So you 
have these bad IPR things in there which I believe we will 
never agree to and neither will some other countries, so I 
think in the end they go away. I don't think there is anything 
on the reverse which would enhance IPR.
    Mr. Sherman. Our usual trade policy is to insist on 
documents that are very good on paper and absolutely fail in 
reality. Hence, we have the largest trade deficit in the 
history of mammalian life.
    Senator Wirth.
    Mr. Wirth. I would just again point out, Congressman, what 
I suggested earlier. I think the biggest point of debate is the 
United States-China relationship on this. And it is an 
opportunity again. I mean, they are very interested in what is 
going to happen on this because they are developing on their 
side a lot of protected technologies, and they also want to get 
the rules right for this. So I think this is a great 
opportunity for the United States and China to use this 
negotiation, not going to happen at Copenhagen, but use this 
relationship to see if we can clarify and come in a positive 
way to agreements here. If I were this administration, I 
certainly would----
    Mr. Sherman. I look forward to us negotiating agreements 
that will be enforced against U.S. Companies and ignored in 
China.
    I yield back.
    Chairman Berman. The time of the gentleman has expired; and 
the gentleman from California, Mr. Rohrabacher, is recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I will preface my questions by stating that I have never 
seen an issue in my 22 years as a Member of Congress or in the 
years beforehand when I was a journalist, I have never seen an 
issue in which there has been a greater attempt to stifle 
debate than this issue on global warming. The repeating of 
``case closed'' and labeling anybody who has honest doubts 
about whether or not the man-made global warming theory is 
correct or not as deniers is just antithetical to open 
discussion of a very important issue; and it leads to errors.
    For example, it leads to errors when people on our own 
committee mentioned that two-thirds of all the CO<INF>2</INF> 
that is coming from developing countries, when only 10 percent 
of all the CO<INF>2</INF> in the atmosphere comes from man-made 
sources. Ninety percent or more comes from natural sources.
    Let's just note that again the theory of man-made global 
warming is today being contested by hundreds of prominent and 
thousands of scientists throughout the world. And this is not 
something that is debates over the deniers, blah, blah; it is a 
matter of serious discussion. When you see especially that ice 
cores now indicate at their second look at it, not the first, 
it was discovered that the warming trends in the world came 
after the increases--the increases in CO<INF>2</INF> were not 
brought on by--the CO<INF>2</INF> didn't bring on the higher 
temperatures. The higher temperatures actually happened after 
the CO--anyway, you know what I am trying to say. Pardon me for 
getting this mixed up.
    But see how we need to discuss this? High scores are now 
showing the temperature increases--temperature increases 
preceded CO<INF>2</INF> increases. So the whole predicate of 
this argument on global warming is that the CO<INF>2</INF> made 
the earth grow warmer. Well, based on that, predictions were 
made that we were going to have ever-more-increasing 
temperatures; and for the last 9 years we haven't had those 
increasing temperatures. We have actually had a decline in 
temperature.
    And we have also seen in the last 2 years the polar ice cap 
that is so touted with the pictures of the polar bear is now 
refreezing for the last 2 years, again, totally contrary to the 
predictions.
    So what we have here is, at the very best, a debatable 
theory of man-made global warming, which isn't used anymore. It 
is man-made climate change because it is no longer warming. So 
it is a very debatable point, if not a totally bogus point, 
when people look up at other planets and see that some of the 
same temperature trends that are going on here are going on on 
Mars, for example. And I happen to be on the science committee, 
and I have followed that very closely. And what does that 
indicate? That--what? Man-made global warming is also affecting 
what is going on on Mars? No.
    So if there are absolute reasons to doubt whether or not 
this theory is correct, why are we rushing headlong into 
Copenhagen, into making agreements that will dramatically 
impact the sovereignty of our country by agreeing that 
international panels will then have greater say as to the 
policies of our Government? And we also will agree to certain 
goals and restrictions that may cause economic hardships here 
and actually benefit countries that are poor because they have 
dictatorships that are corrupt.
    Let me just ask the panel this. Does anyone on this panel 
think that the threat of global warming--excuse me, climate 
change--it is not global warming anymore--would mean that we 
should agree to policies that would discourage the use of 
airline transportation? Would anyone agree with that?
    Chairman Berman. The panel has 38 seconds.
    Mr. Wirth. I would certainly say that the airline industry, 
like everybody else, is going to have a responsibility to the 
integrity of the climate envelope that allows life on earth to 
exist as we know it.
    Mr. Rohrabacher. So the answer is yes. Thank you. So we are 
going to discourage travel on airlines.
    Mr. Wirth. Congressman, I am perfectly happy to answer my 
own questions.
    Mr. Rohrabacher. But I only have 13 seconds so people can--
--
    How about--what I have heard from the man-made global 
warming group is that they want to discourage airline travel, 
discourage the eating of meat, dramatically increase the price 
of gasoline. These things will have huge impacts, especially if 
mandated by an international agreement enforced by 
international panels on the people of the United States. This 
is a catastrophe being driven by a very questionable theory at 
best but probably a bogus theory.
    Thank you.
    Chairman Berman. Probably a bogus theory. That is a 
concession on your part.
    The gentleman from Massachusetts, Mr. Delahunt.
    Mr. Delahunt. Well, I think there is one area that I find 
myself in agreement with the gentleman from California; and I 
do not believe that the changes that are occurring on Mars is 
the result of anything that human beings are doing. I presume 
that is all the responsibility of the Martians.
    But, to be serious, you know, Mr. Groves--and my ranking 
member and friend from California raised the issue of 
sovereignty here. Are there any treaties or conventions that--
do you have a philosophical or an ideological perspective in 
terms of the United States entering into international 
conventions or international treaties?
    Mr. Groves. Not at all, Mr. Delahunt. Thank you for the 
question. It just depends on the treaties that we are getting 
into. Obviously, bilaterals are better, because we can control 
the terms better.
    Mr. Delahunt. And I should have phrased it multilateral.
    Mr. Groves. Multilateral human rights treaties, for 
example. We are party to several major universal human rights 
treaties. But, in those cases, every 4 years we go and we 
report to a committee of experts in Geneva. They look at our 
record. They make----
    Mr. Delahunt. So you are comfortable with human rights, 
multilateral human rights treaties?
    Mr. Groves. As properly understood, I am comfortable with 
them.
    Mr. Delahunt. In terms of multilateral environmental 
conventions?
    Mr. Groves. If it is something that is in the U.S. best 
interest and preserves American sovereignty, it is something--
--
    Mr. Delahunt. You always put that qualifier, ``preserving 
American sovereignty.'' I would suggest that any convention in 
some way can be interpreted as ceding some sort of sovereignty.
    Mr. Groves. Correct.
    Mr. Delahunt. And I guess the issue is, is it in our best 
interests when one steps back and does the analysis?
    Mr. Groves. Or do a cost-benefit analysis. What are we 
getting for surrendering or ceding some or a lot of our 
sovereignty? Yes.
    Mr. Delahunt. And, again, that obviously is in the eye of 
the beholder, whether we are ceding. Because the economic 
arguments that I am hearing like setting the rules--you know, 
there are rules in every marketplace, you know, whether it is--
we have rules domestically. We have safety rules. We have food 
security rules. We have an FDA. Maybe some would abrogate all 
of those rules and just have a marketplace with absolutely no 
supervision, no regulation, no protections. At least I am using 
the term protections for the consumers.
    So the concern that I have is that eventually rules are 
going to be set that we had little input into; and, as a 
result, we are going to find ourselves--I think it was Mr. 
Stearns or maybe it was Senator Wirth who talked about we are 
going to be catching up in terms of the new economic 
opportunities.
    I listened to my friend from Illinois, and I sympathize 
with that pain and anguish that is besetting many of the people 
that work in manufacturing. You know, I wish that we had done 
something earlier in terms of the automobile industry, you 
know, that would have made the American automobile manufacturer 
much more competitive than it is. Because, let's be honest, we 
got creamed by foreign competitors. All these good, patriotic 
Americans are going out buying Toyotas or BMWs, because, for 
some reason, the marketplace failed us, the American 
manufacturers.
    So, Senator Wirth, would you care to comment?
    Mr. Wirth. I think there are interesting areas where you 
have got to worry about sovereignty, and there are other areas 
where I think Mr. Groves and I would probably disagree. But if 
you look at the Law of the Sea, it seems to me that enhances 
U.S. sovereignty. We get an enormous increase if we ratified 
the Law of the Sea--which we haven't done for reasons that 
escape me entirely. If we ratify that, we enhance, we broaden 
our sovereignty very significantly. We broaden our jurisdiction 
very significantly. We increase our rights significantly. In 
the most selfish way, you know, we benefit from that treaty.
    Chairman Berman. I agree with you. By his facial 
expression, I have a feeling Mr. Groves does not share your 
view about the Law of the Sea.
    I yield myself 5 minutes.
    And, I mean, this issue that Mr. Delahunt raises of 
impinging sovereignty, I mean, there are two ways to look at 
this. One is--and I guess in every different area you can have 
different views of it. One is that every international treaty 
is impinging sovereignty to some extent, because it is 
providing constraints that don't otherwise exist on what 
American political institutions can do.
    So another way of looking at it is every one of these is a 
sovereign decision of the United States and, therefore, none of 
them impinge on U.S. sovereignty. It gets a bit philosophical 
here.
    Mr. Groves. What we want to look at real quickly is, when 
it comes down to sovereignty, depending on the treaty, it boils 
down to the question of who decides. At the end of the day, who 
decides whether the United States is meeting its treaty 
obligations?
    Chairman Berman. Well, sometimes the WTO decides.
    Mr. Groves. If it goes to a case and we bring it up to the 
court, yes. And we were happy to cede that power to them. We 
were front and center in those negotiations.
    Chairman Berman. So now it is a question of what we are 
happy to do, what is wise to do. It is getting down to case by 
case.
    Mr. Groves. Treaty by treaty, there is a different 
analysis.
    Chairman Berman. Well, one is, is it appropriate? You 
propose sort of an analysis before you jump into something of 
what are the economic costs trying to go through this process. 
Is a corollary part of that process what are the economic costs 
of not getting into meaningful, enforceable limits? Is that 
appropriate, or is that called creative scoring?
    Mr. Groves. I think it is the same question. You can't 
determine what the economic costs are.
    Chairman Berman. So your analysis would allow for that kind 
of comparison?
    Mr. Groves. Sure. To the extent that those costs can be 
quantified on a scientific basis, of course.
    Chairman Berman. To get down to some of the specifics, I am 
wondering if any of you--and Senator, Ms. Claussen, perhaps 
just by your background you might be the most likely to suggest 
it. Waxman-Markey talks about some funding assistance for 
developing countries. Kyoto provided a framework for the flow 
of money through the clean development mechanism, which has 
been criticized for funding projects that do not reduce global 
warming. What is the best way to distribute funds for 
mitigation and technology transfer? Are existing mechanisms 
sufficient? Should we try to look for a new model?
    Mr. Wirth. My own view of this, Mr. Chairman, is that we 
ought to start by professionalizing CDM, the Clean Development 
Mechanism. It was a good idea. It remains a good idea. It has 
been caught up in an international bureaucracy that is very 
tedious and incredibly slow. It is a good idea. It ought to be 
incorporated into work being done by financial experts to make 
this thing work, because it is a very, very good idea. And it 
is a good way for us to discharge our obligations if you 
believe, as I do, that, one, we put a lot of the pollution up 
there but also that what we want to do, for example, is to slow 
down the rate of deforestation. Well, how do you do it? What 
mechanism do we have for buying forests effectively from people 
who would be happy to sell them to us, if we had some money, 
rather than to cut them down? So how do we pay for that?
    Well, CDM is a very good mechanism. We don't have to create 
something new, and it doesn't have to be the Copenhagen 
agreement that gets us there.
    But this is, again, something, from the perspective of this 
committee, to look at and say, well, how do we make this work 
better? It is so terribly important. I mean, that is one good 
example of, it seems to me, what we could be doing at 
essentially no cost to us.
    Chairman Berman. Ms. Claussen.
    Ms. Claussen. Let me just add that there is an effort to 
try to reform CDM, because the process is slow and because some 
of the reductions haven't been verified. So some of it is not 
real. I think that has to be something that we take on, because 
there are ways to use CDM to get something that is real, and 
that is really what it should be all about. So some reform I 
think is necessary.
    Chairman Berman. Thank you.
    Because my own time is running out, let me just ask a 
question that probably could have a yes or no answer. Is there 
any aspect of the Strategic and Economic Dialogue with China--I 
mean, this whole notion of thickening the United States-China 
relationship in this area? Is there any aspect of that that the 
administration is treating as specially focused on 
environmental energy kinds of issues?
    Mr. Wirth. Well, it has an overall framework. As you know, 
it came out of the Treasury Department originally; and it was 
run by Secretary Paulson. He was the big guy in the Cabinet. I 
mean, he sort of filled the vacuum.
    Since then, it was transferred to the State Department. 
They thought that was necessary--there was an MOU signed this 
last summer. The question now is one of implementation and 
really serious management of the dialogue--and do the Chinese 
understand this? We don't want to negotiate something new. We 
don't have to negotiate something new. It is already there. 
They already understand that. It is a matter of us managing it 
on our side.
    I would be happy to talk to anybody further about this, Mr. 
Chairman. We just heard over and over and over again--I was at 
a major conference in Beijing of business people from all over 
China and all over the United States, and this was the number 
one issue--how much attention we are paying to the 
implementation of this agreement. Americans asking, please do 
this; and Chinese business saying, please do this. And we are 
missing the ball.
    This is not a massive new invention. We have the mechanism 
that is there. It is just a matter of tending to it and putting 
the political muscle behind it. I think that Secretary Clinton 
could be encouraged to do this.
    We have a great ambassador there. Huntsman is very, very 
impressive, but he doesn't have time to do this day and day 
out. That is not his job. The climate negotiator, that is not 
his job. It is this economic relationship. That is where we 
ought to hone right in on, and that is something I believe also 
that this committee certainly has the jurisdiction and has the 
ability to really underscore this and find out what is going on 
and what the different views are.
    Chairman Berman. Thank you.
    We could probably continue the debate about the science for 
a while, but I think we should adjourn the hearing. Thank you 
all very much for coming and participating. A lot of good ideas 
to follow up on.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--from Stern deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Wirth deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFR--Claussen deg.

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
